DODIG-2012-051                          February 13, 2012




   Navy Enterprise Resource Planning System Does Not
     Comply With the Standard Financial Information
    Structure and U.S. Government Standard General
                         Ledger
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
BEA                           Business Enterprise Architecture
BTA                           Business Transformation Agency
COA                           Chart of Accounts
DASN(FMO)                     Deputy Assistant Secretary of the Navy
                                 for Financial Operations
DCMO                          Deputy Chief Management Officer
DDRS                          Defense Departmental Reporting System
DFAS                          Defense Finance and Accounting Service
ERP                           Enterprise Resource Planning
FFMIA                         Federal Financial Management Improvement Act of 1996
FMO                           Office of Financial Operations
IRB                           Investment Review Board
NAVAIR                        Naval Air Systems Command
OMB                           Office of Management and Budget
SFIS                          Standard Financial Information Structure
USD(AT&L)                     Under Secretary of Defense for Acquisition, Technology,
                                  and Logistics
USD(C)/CFO                    Under Secretary of Defense (Comptroller)/Chief
                                  Information Officer, DoD
USSGL                         U.S. Government Standard General Ledger
                                                                                February 13, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                  TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                  CHIEF FINANCIAL OFFICER, DOD
               CHAIRMAN, DEFENSE BUSINESS SYSTEMS MANAGEMENT
                  COMMITTEE
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
               NAVAL INSPECTOR GENERAL

SUBJECT: Navy Enterprise Resource Planning System Does Not Comply With the
         Standard Financial Information Structure and U.S. Government Standard General
         Ledger (Report No. DODIG-2012-051)

We are providing this report for your review and comment. The Navy approved deployment of
the Navy Enterprise Resource Planning (ERP) System without ensuring it complied with the
Standard Financial Information Structure and the U.S. Government Standard General Ledger.
As a result, the Navy spent $870 million to develop and implement a system that might not
produce accurate and reliable financial information. When deployment is complete, the System
will manage 54 percent of the Navy’s total obligation authority, which was valued at about
$85 billion for FY 2011. We considered management comments on a draft of this report when
preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The Director,
Acquisition Resources and Analysis, comments were not responsive. We request that the
Director, Acquisition Resources and Analysis, provide additional comments on revised
Recommendation 1 by March 13, 2012. The Deputy Chief Management Officer responded for
the Chairman, Defense Business Systems Management Committee. The comments were
partially responsive, and we request additional comments on revised Recommendation 2.a by
March 13, 2012.

Comments from the Deputy Assistant Secretary of the Navy (Financial Management and
Comptroller, Office of Financial Operations) and the Navy ERP Program Manager, who
responded for the Assistant Secretary of the Navy (Research, Development, and Acquisition)
were partially responsive. We request the Deputy Assistant Secretary and Program Manager,
provide additional comments on Recommendations 3.a, 3.b, 3.c, and 3.g by March 13, 2012.
Please see the Recommendations Table on page ii of this report.

If possible, send a portable document (.pdf) file containing your comments to
audclev@dodig.mil. Copies of the management comments must contain the actual signature of
the authorizing official. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them over
the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905.


                                             Amy J. Frontz, CPA
                                             Principal Assistant Inspector General
                                               for Auditing
Report No. DODIG-2012-051 (Project No. D2011-D000FN-0002.000)                   February 13, 2012

              Results in Brief: Navy Enterprise Resource
              Planning System Does Not Comply With the
              Standard Financial Information Structure and
              U.S. Government Standard General Ledger

What We Did                                          The Defense Business Systems Management
We determined whether the Navy Enterprise            Committee Chairman should
Resource Planning System (System) complied           •	 track the configuration and implementation
with the Standard Financial Information                 of BEA requirements to ensure adequate
Structure (SFIS) and the U.S. Government                progress is being made toward the planned
Standard General Ledger (USSGL).                        SFIS compliancy date, and
                                                     •	 require the Investment Review Board to
                                                        update guidance for assessing SFIS
What We Found                                           compliance to include an independent
The Navy developed and approved deployment              validation before making a system
of the System to 54 percent of its obligation           certification recommendation.
authority, which was valued at $85 billion for
FY 2011, without ensuring that the System            The Assistant Secretaries of the Navy
complied with SFIS and USSGL.                        (Research, Development, and Acquisition and
                                                     Financial Management and Comptroller) should
The Navy did not have an adequate plan to            •	 implement SFIS requirements for the System,
incorporate SFIS requirements into the                  and use the independent SFIS validation to
development and implementation of the System,           improve the validation process,
did not develop an adequate validation process       •	 update the System Chart of Accounts to
to assess compliance with SFIS requirements,            include all USSGL/DoD accounts used to
implemented the System to accommodate                   prepare Navy financial statements,
existing Navy Chart of Accounts and
                                                     •	 comply with Treasury updates, and
noncompliant procedures, and failed to
                                                     •	 review financial operations and policy
implement processes necessary to support
                                                        governing the System.
requirements. As a result, the Navy spent
$870 million to develop and implement a
system that might not produce accurate and           Management Comments and
reliable financial information.                      Our Response
                                                     The USD(AT&L) comments were
What We Recommend                                    nonresponsive, and we request additional
The Under Secretary of Defense for                   comments on Recommendation 1. The Deputy
Acquisition, Technology, and Logistics               Chief Management Officer and Navy comments
(USD[AT&L]) should review the Navy ERP               were partially responsive, and we request
System’s Business Enterprise Architecture            additional comments on Recommendations 2.a
(BEA) compliance status to ensure adequate           3.a, 3.b, 3.c, and 3.g. Please see the
progress is being made toward the planned            recommendations table on the back of this page.
FY 2015 SFIS compliance date before
approving deployment to additional commands.

                                                 i
Report No. DODIG-2012-051 (Project No. D2011-D000FN-0002.000)           February 13, 2012

Recommendations Table

         Management                      Recommendations     No Additional Comments
                                        Requiring Comment          Required
Under Secretary of Defense for    1
Acquisition, Technology, and
Logistics

Chairman, Defense Business        2.a                       2.b
Systems Management
Committee

Assistant Secretary of the Navy   3.a, 3.b, 3.c, 3.g        3.d, 3.e, 3.f
(Research, Development, and
Acquisition)
Assistant Secretary of the Navy   3.a, 3.b, 3.c, 3.g        3.d, 3.e, 3.f
(Financial Management and
Comptroller)

Please provide comments by March 13, 2012.




                                               ii
Table of Contents
Introduction                                                                   1


      Audit Objectives                                                         1

      Background on the Navy ERP System                                        1

      Navy Needs to Improve Processes for Implementing the ERP System          4


Finding. The Navy ERP System Must Comply With SFIS and USSGL                   5


      Standard Financial Information Structure                                 5

      Navy Officials Need to Address SFIS Compliance                           6

      Inaccurate SFIS Compliance Self-Assessment                               8

      Chart of Accounts Guidance                                               9

      System Needs to Include All Reported USSGL/DoD Accounts                 10

      Navy Officials Should Update the Chart of Accounts as Required
         by Treasury Policy                                                   10

      Official Crosswalk Needs to Be Maintained in the System                 11

      Financial System of Record Must Support Financial Statements            11

      Management Comments on the Finding and Our Response                     13

      Revised Recommendations                                                 13

      Recommendations, Management Comments, and Our Response                  14


Appendices

      A. Scope and Methodology                                                21

             Use of Computer-Processed Data                                   22

             Use of Technical Assistance                                      22

             Prior Coverage of the Navy ERP System                            22

      B. Issues Incorrectly Classified as Compliant, Which Affected 

             Financial Data                                                   23

      C. Navy-Reported Accounts Not Included in the Navy ERP System           25


Management Comments

      Under Secretary of Defense for Acquisition, Technology, and Logistics   29

      Deputy Chief Management Office                                          30

      Department of the Navy                                                  32

Introduction
Audit Objectives
Our overall objective was to determine whether the Navy Enterprise Resource Planning
(ERP) System, referred to as the System, provides DoD management with accurate,
timely, and reliable financial information. Specifically, we determined whether the
System complied with the Standard Financial Information Structure (SFIS) and the
U.S. Government Standard General Ledger (USSGL). However, compliance with this
guidance did not apply to the timeliness of the financial data. As such, we did not
determine whether the System provided DoD management with timely financial
information. See Appendix A for a discussion of the scope and methodology and prior
audit coverage.

Background on the Navy ERP System
Navy ERP
The Navy has experienced long-standing financial reporting problems. The Assistant
Secretary of the Navy (Financial Management and Comptroller) has acknowledged seven
material weaknesses related to seven of the Navy’s business processes and systems:
Collections and Disbursements, Procure to Pay Processes, Real Property, General
Equipment, Military Equipment, Operating Materials and Supplies, and Inventory. These
weaknesses and related problems exist, in part, because the Navy did not design its
legacy accounting systems to maintain auditable data at the transaction level to support
the amounts reported on its financial statements.

So that its financial statements will be auditable, the Navy is implementing the System
throughout its network. An Office of the Assistant Secretary of the Navy (Financial
Management and Comptroller) Office of Financial Operations (FMO) presentation,
“Navy ERP: Roadmap to Enterprise Business Transformation,” May 27, 2009, stated
that the System enabled, but did not guarantee, audit readiness. To improve the DoD’s
financial processes, controls, and information, the Under Secretary of Defense
(Comptroller)/Chief Financial Officer, DoD (USD[C]/CFO) created the “Financial
Improvement and Audit Readiness Plan,” updated biannually. The guidance for the plan
states that reporting entities implementing the ERP systems as a solution for resolving
audit impediments should map known processes and control weaknesses to the new
systems requirements to ensure that the System will adequately address the impediments.

The System is an integrated business management system implemented to update and
standardize Navy business operations, provide financial transparency across the
enterprise, and increase effectiveness and efficiency. The System uses a software product
from SAP Corporation 1 that allows the Navy to unify, standardize, and streamline all its


1
    The SAP Corporation is the market leader in enterprise application software.

                                                       1

business activities into one integrated system. The Command Implementation Guidance,
“Navy Enterprise Resource Planning Program,” Version v2.0, July 15, 2009, states that
the System also has the ability to generate auditable financial statements compliant with
all current financial accounting standards, and governing policies, regulations, and laws.

The Assistant Secretary of Defense for Networks and Information Integration approved
the Navy ERP Program for development in August 2004. Initial deployment of the
System at the four major system commands 2 began in October 2007 at Naval Air
Systems Command (NAVAIR), and the Navy plans to complete this deployment in
FY 2012 with the Naval Sea Systems Command conversion. According to the Navy,
when deployment at the four major system commands is complete, the System will
manage 54 percent of the Navy’s total obligation authority, which was valued at about
$85 billion for FY 2011.

ERP Roles
Navy Office of Financial Operations
The FMO is responsible for providing integrated Navy financial management architecture
by:

    •	 providing managers with timely, accurate, and useful information for policies,
       procedures, and direction on accounting, finance, management control, financial
       services, and financial systems;
    •	 preparing reports and supporting documentation for any adjustments when 

       converting legacy financial systems into the System; 

    •	 validating all General Fund and Working Capital Fund balances;
    •	 assisting implementing commands during data conversion planning and migration
       to the System, including providing policy on financial issues for conversion and
       data cleansing actions;
    •	 serving as the authority over the System Chart of Accounts (COA) and approving
       all changes before to their implementation into the System; and
    •	 regularly updating and modifying the COA to validate SFIS and USSGL

       compliance.


The Navy ERP Program Office Responsibilities
The Assistant Secretary of the Navy (Research, Development, and Acquisition), Navy
ERP Program Office (Program Office), is responsible for developing the Navy standard
business processes and configuring the System. The Program Office also provides a
structured implementation process and functional and technical expertise to support Navy
activities’ key implementation events.




2
 Naval Air Systems Command, Space and Naval Warfare Systems Command, Naval Supply Systems
Command, and Naval Sea Systems Command.

                                              2

The goal of the Navy activities is to ensure site personnel are capable and ready to use the
System and that site personnel are able to identify problem documents, verify the
activities’ ability to meet reporting deadlines, and confirm proper documentation is in
place to support all transactions. Navy activities using the System maintain responsibility
for reports that the Defense Finance and Accounting Service (DFAS) requires for
financial reporting. The Program Office also provides DFAS users with financial display
access to the System to assist with all support requirements.

Defense Finance and Accounting Service
The DFAS overall mission is to direct, approve, and perform finance and accounting
activities for DoD. DFAS Cleveland is responsible for monthly processing, reporting,
and posting of the Navy’s financial data to the Defense Departmental Reporting System
(DDRS). DDRS produces DoD Components' financial statement reports based on the
USSGL. After DFAS processes Navy financial data in DDRS, DDRS compiles and
consolidates Navy and other DoD Components’ financial data for the DoD agency-wide
financial report.

DFAS supports commands and activities that deploy the System; however, Navy officials
remain responsible for the reliability of the financial data. 3 DFAS:

    •	 provides maintenance of general ledger tables;
    •	 coordinates with Navy activities to verify that they update the System

       appropriately;

    •	 identifies trial balance issues; and
    •	 prepares the Navy’s financial reports from DDRS.

Federal Financial Management Improvement Act Requirements
for Financial Management Systems
Public Law 104-208, “Omnibus Consolidated Appropriations Act, 1997,” Title VIII,
“Federal Financial Management Improvement Act of 1996” (FFMIA), requires that
Federal agencies implement financial management systems capable of routinely
providing reliable financial information across the Federal Government and applying
uniform accounting standards.

Section 803(a) of the FFMIA requires agencies to implement and maintain financial
management systems that comply substantially with (1) Federal financial management
system requirements, (2) applicable Federal accounting standards, and (3) the USSGL at
the transaction level.

Section 803(a) of the FFMIA states that to rebuild the accountability and credibility of
the Government and restore public confidence, Federal agencies must incorporate


3
  A memorandum of understanding between Navy activities and commands implementing ERP and DFAS
for operational support was signed in September 2007, detailing the roles and responsibilities and serving
as a framework for command-specific agreements.

                                                    3

accounting standards and reporting objectives into their financial management systems so
that all the assets and liabilities, revenues, expenditures or expenses, and the full costs of
programs and activities can be consistently and accurately recorded, monitored, and
uniformly reported throughout the Government.

Navy Needs to Improve Processes for Implementing
the ERP System
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses. The Navy did not have an adequate plan to incorporate SFIS requirements
in the development and implementation of the System, did not have an adequate
validation process to assess compliance with SFIS requirements, implemented the System
to accommodate existing Navy COA and noncompliant procedures, and failed to
implement processes necessary to support Department of the Treasury (Treasury) and
DoD requirements.

We will provide a copy of the report to the senior officials responsible for internal
controls in the Offices of the Assistant Secretary of the Navy (Research, Development,
and Acquisition) and the Assistant Secretary of the Navy (Financial Management and
Comptroller).




                                              4

Finding. The Navy ERP System Must Comply
With SFIS and USSGL
The Navy developed and approved deployment of the Navy ERP System to 54 percent of
its obligation authority without ensuring that the System complied with the SFIS and
USSGL. Specifically, the Program Office and FMO officials (Navy officials):

    •	 deployed the System even though it was only 53-percent compliant 4 with
       FY 2010 Business Enterprise Architecture (BEA) 7.0 SFIS Compliance Checklist
       requirements;

    •	 inaccurately completed the BEA 7.0 SFIS Compliance Checklist;

    •	 did not include 110 of 294 USSGL/DoD accounts required to support Navy
       financial statements;

    •	 did not make at least two updates to the USSGL/DoD COA, as required by the
       Treasury;

    •	 did not implement an accurate crosswalk from the Navy COA to the USSGL/DoD
       COA in the System (there were 41 differences between the official Navy
       crosswalk and the System crosswalk); and

    •	 did not support amounts reported for the Navy by DDRS in the System.

This occurred because Navy officials did not adequately plan to incorporate SFIS
requirements into the development and implementation of the System, did not develop an
adequate validation process to assess compliance with SFIS requirements, implemented
the System to accommodate existing Navy COA and noncompliant procedures, and failed
to implement processes necessary to support Treasury and DoD requirements.

As a result, the Navy spent $870 million to develop and implement a system that may not
produce accurate and reliable financial information. In addition, the System may not
correct the Navy’s long-standing material weaknesses.

Standard Financial Information Structure
Public Law 108-375, “The National Defense Authorization Act for FY 2005,”
October 28, 2004, requires an information infrastructure that, at a minimum, integrates
budget, accounting, program information, systems, and performance. Office of
Management and Budget Circular No. A-127 (OMB Circular A-127) and the Revised


4
 Not all SFIS requirements have been defined. See Table 1 for a complete description of the Navy ERP
SFIS compliancy status for FY 2009 and FY 2010.

                                                   5

Implementation Guidance for the FFMIA requires agency financial management systems
to reflect an agency-wide financial information classification structure that is consistent
with the USSGL. DoD uses the SFIS to meet these requirements. DoD Regulation
7000.14-R, “DoD Financial Management Regulation,” Volume 1, Chapter 4, “Standard
Financial Information Structure (SFIS),” requires that Military Departments maintain
their systems to be consistent with SFIS requirements.

SFIS is a comprehensive systems language that supports information and data
requirements for budgeting, financial accounting, cost and performance management, and
external reporting across DoD. It provides an enterprise-wide standard for categorizing
financial information to support financial management and reporting functions that DoD
requires of all systems supporting financial transactions.

The Business Transformation Agency (BTA) 5 facilitates the governance of the SFIS
Board and approves systems implementation plans. BTA was established to guide the
transformation of business operations throughout DoD and to deliver enterprise-level
capabilities that align to warfighter needs.

The SFIS Board is a cross-agency working group responsible for approving all changes
to the SFIS. The Board must vet all changes before the SFIS can be updated. The voting
members of the SFIS Governance Board include but are not limited to representatives
from the Under Secretaries of Defense; other Defense organizations, such as DFAS and
the Defense Logistics Agency; Military Departments (Army, Navy, Air Force, and
Marine Corps); and U.S. Special Operations Command.

The Military Departments and the Defense agencies are responsible for implementing
SFIS for all applicable target systems that interface with the System, by ensuring and
maintaining compliance with the BEA 7.0 SFIS Compliance Checklist (checklist).

Navy Officials Need to Address SFIS Compliance
    Navy officials indicated in their Navy officials indicated in their self-assessment
    self-assessment that the System   that the System complied with only 53 percent of
    complied with only 53 percent     FY 2010 checklist requirements. To validate SFIS
          of FY 2010 checklist        compliance, Navy officials must annually complete
              requirements.           the checklist and indicate when they will correct
                                      noncompliant items. The checklist includes
72 data elements and 335 business rule requirements 6 selected by the SFIS Board and
facilitated by BTA. Table 1 shows the results of the checklist for FY 2009 and FY 2010,
based on a self-assessment of the 335 business rules.


5
  The BTA is scheduled to be dissolved and its responsibilities shifted to the Deputy Chief Management
Officer. The BTA indicated that SFIS governance and facilitation would continue under the Deputy Chief
Management Officer.
6
  A data element is a named identifier of each of the entities and their attributes that are represented in a
database and a business rule is a statement that defines or constrains some aspect of the business. It is
intended to assert business structure or to control or influence the behavior of the business.

                                                      6

                        Table 1. The System’s SFIS Compliance Status
     Fiscal         SFIS              SFIS           SFIS Did        Compliancy to
     Year         Compliant       Noncompliant       Not Apply       Be Determined
     2009           54.1%             17.6%           17.3%              11.0%
     2010           53.4%             20.0%           17.3%               9.3%

Navy officials provided to the BTA their planned action for SFIS compliance in the
checklists. For example, Navy officials stated that they would work with BTA to make
changes to master data interfaces for business and trading partner numbers with an
estimated compliance date of September 30, 2015. Navy officials indicated that the
entire System for the four major system commands would be compliant by FY 2015.
Navy officials expected the complete deployment of the System at the four commands by
FY 2012 even though the expected compliancy date was not until 3 years after full
deployment.

The System was not SFIS-compliant because Navy officials did not adequately plan to
incorporate SFIS requirements while developing and implementing the System. For
example, the Navy began deployment and implementation of the System in October
2007; however, as of January 2011, Navy officials had not included an SFIS-compliant
standard (USSGL/DoD) COA in the System. 7

USD(C)/CFO issued a memorandum, “DoD Standard Chart of Accounts in Standard
Financial Information Structure,” August 13, 2007, requiring implementation of USSGL
account and DoD standard account extensions to provide the detail required for
budgetary, financial, and management reports. Implementation of the standard COA was
meant to eliminate translation and crosswalking of account values into DDRS. Navy
officials should have incorporated this requirement into the development and
implementation; however, instead, they continued to use the Navy’s standard COA,
which is not SFIS compliant.

Section 2222, title 10, United States Code (10 U.S.C. § 2222) requires DoD to conduct a
periodic review, at least annually, of every Defense business system investment, for
funding to be approved. The Investment Review Board (IRB) issued guidance that
incorporates 10 U.S.C. § 2222 and directs the Components to complete annual reviews
and ensure that their systems are assessed against the DoD BEA. The Components
complete the IRB Annual Review Assertion Memo, where they identify which version of
the BEA their systems are or will be compliant with and which version of the BEA their
systems were last certified against. According to the IRB guidance, these internal
Component reviews meet the 10 U.S.C. § 2222 Annual Review requirement.




7
    See “Official Crosswalk Needs to Be Maintained in the System” section for complete details on the COA.

                                                     7

The IRB reviews the Assertion Memo and makes a recommendation to the Defense
Business Systems Management Committee for system certification. As stated, BEA
compliance is required to be reviewed and certified by the IRB annually and must occur
for funding to be approved. In the Navy’s annual review submission, Navy officials
provided DoD with the compliance checklist, 8 which showed SFIS noncompliance along
with the expected compliance date. The IRB accepted the BEA compliancy package and
recommended certification to the Defense Business System Management Committee
based on the expected compliancy date.

Because of the inadequate planning, the Navy spent $870 million to develop and
implement the System without demonstrating or validating the capability to process
financial transactions that produced reliable financial statements or were SFIS compliant.
Navy officials should implement compliant SFIS requirements in the System as currently
deployed, and USD(AT&L), as the milestone decision authority, should review the Navy
ERP System’s BEA compliance status to ensure adequate progress is being made toward
the planned FY 2015 SFIS compliance date before approving deployment to additional
commands. In addition, the Defense Business System Management Committee should
track the configuration and implementation of BEA requirements to ensure adequate
progress is being made toward the planned FY 2015 SFIS compliancy date for each
funding certification required.

Inaccurate SFIS Compliance Self-Assessment
                                     Navy officials inaccurately completed the checklist
    Navy officials asserted that the during the self-assessment of the System’s SFIS
    System was compliant with two    compliance. Specifically, Navy officials asserted
    data elements for which it was   that the System was compliant with two data
        actually noncompliant.       elements for which it was actually noncompliant.
This occurred because Navy officials did not develop an adequate validation process to
assess compliance with defined SFIS requirements.

As discussed in the previous section, the checklist measures compliance with 72 SFIS
data elements and 335 corresponding business rules. Each data element may have 1 to
12 business rules. To be compliant with an SFIS data element, the system must be
compliant with all applicable business rules. Noncompliance with data elements and
business rules can result in posting errors and incorrect reporting of financial data.

The DFAS Strategic Business Management Office created the System “Issues List,”
which included procedural and systemic issues that occurred from monthly interfaces
between the System and DDRS. In conjunction with DFAS and the Navy, we identified
11 issues that affected financial data. We examined the financial issues and traced those
issues to the related data elements and business rules in the checklist. Navy officials
incorrectly certified the System as compliant with two data elements, related to 7 of the


8
 While the checklist focuses specifically on the SFIS, it is one in a series of BEA compliance products.
This checklist is required to be used when evaluating systems for SFIS compliance.

                                                     8

11 issues, 9 such as reclassifications, general ledger posting corrections, and manual
creation of unsupported journal vouchers. See Appendix B for details on the seven
issues.

In addition, BTA started an SFIS validation assessment in May 31, 2011. 10 This review
was part of a larger review of all ERP systems that were then in use for DoD. BTA
independently examined checklist business rules in the System to assess the System’s
SFIS compliance. We compared the results of BTA’s ongoing assessment with the
Navy’s FY 2010 checklist assertions and found that Navy officials had asserted
compliance with an additional 10 business rules 11 with which the System was actually
noncompliant.

Because of the inaccurate self-assessment, Navy financial managers overlooked the
System issues in financial data posting and reporting. Therefore, posting logic errors
went undetected in the System’s trial balance submissions, which required DFAS to
make journal vouchers to correct Navy financial data. For example, the Navy applied
surcharges to budgetary accounts, although according to the “DoD Financial
Management Regulation” guidance, surcharges have no budgetary impact. The
undetected posting logic errors impeded the Navy’s ability to accurately report financial
data from the System to stakeholders, and DFAS indicated that the errors required a
significant amount of resources to correct, which increased costs to DoD.

In addition, the IRB relied on this inaccurate self-assessment during the annual
certification review. Navy officials should use the independent SFIS validation
assessment performed by BTA and the subsequent discussions to improve the validation
process. In addition, the Defense Business System Management Committee should
require the IRB to update guidance for assessing SFIS compliance to include an
independent validation assessment of SFIS compliance before making a system
certification recommendation.

Chart of Accounts Guidance
OMB Circular A-127 and the FFMIA require the use of USSGL in all DoD accounting
systems for all appropriations and funds and for internal and external reporting needs.
“Treasury Financial Manual,” Supplement 2, “United States Standard General Ledger
(USSGL) Accounts and Definitions” (2009) requires subsidiary accounts to summarize to
the four-digit USSGL accounts. The USSGL standardizes Federal agency accounting
and supports the preparation of external reports required by the OMB and Treasury. The
COA provides the basic structure for the USSGL, and attributes are added to provide the
appropriate level of detail needed for agency reporting.




9
  The remaining four issues were related to business rules that Navy officials certified as noncompliant.

10
   The BTA validation was not completed as of September 2011.

11
   In order to be accurate, we only included business rules that were consistent between checklist versions

7.0 (FY 2010) and 8.0 (FY 2011).

                                                      9

The USD(C)/CFO memorandum dated August 13, 2007, further defined the COA
requirement. This policy requires consistent implementation of a DoD standard COA,
which comprises USSGL accounts and DoD standard account extensions in Component
target general ledger accounting systems. The ERP System is the Navy’s target general
ledger accounting system and should include the USSGL/DoD COA.

System Needs to Include All Reported
USSGL/DoD Accounts
                                      Navy officials did not include in the System 110 of
  Navy officials did not include in
                                      the 294 USSGL/DoD accounts reported on Navy
       the System 110 of the
                                      financial statements. With assistance from
    294 USSGL/DoD accounts
                                      USD(C)/CFO personnel, we determined that the
    reported on Navy financial
                                      System should have used the 110 accounts to fully
            statements.
                                      support Navy financial data reported from DDRS.
                                      As the Navy financial system of record where
implemented, the System should include and maintain subsidiary information for all
transactions and a comprehensive COA to process all Navy and DoD financial
transactions that support Navy financial reports.

Navy officials indicated that the initial System COA included the November 2003 Navy
COA and other accounts developed by the SAP Corporation to address posting logic
issues, which did not include 110 additional USSGL/DoD accounts. Navy officials
omitted those accounts because they had not developed a process that ensured
compliance with Treasury guidance to include all required general ledger accounts in the
System. The omission of these accounts made it difficult or impossible to trace amounts
reported for the Navy by DDRS to the financial system of record and ultimately to the
source documentation.

Without these accounts, the System did not produce reliable, supported financial
statements without manual intervention. For example, we identified 13 general ledger
accounts in the September 30, 2010, DDRS NAVAIR trial balance for appropriation
1804 that were not included in the System. Navy officials should update the System
COA to include all USSGL and DoD accounts used to prepare Navy financial statements.
See Appendix C for a listing of DDRS trial balance accounts used to prepare Navy
financial statements but not included in the System.

Navy Officials Should Update the Chart of Accounts as
Required by Treasury Policy
Navy officials did not make at least two updates required by the “Treasury Financial
Manual,” supplement 2, in the System COA. The “Treasury Financial Manual” required
the Navy to add account 1347, Allowance for Loss on Interest Receivable, and delete
account 1349, Inventory Purchase – Progress Payment Processing, for FY 2010 reporting.
The System was not able to properly record transactions for those accounts for FY 2010
reporting.


                                           10

Navy officials agreed that they should have made these updates in the System. Navy
officials did not update the System COA because they did not have an adequate process
to implement Treasury updates to the System. On November 9, 2010, Navy officials
created the Navy COA Governance Board charter. The charter established the
responsibility for maintaining the COA, but did not include a procedure to verify that
system owners made required changes.

The failure to make Treasury updates prevented the System from properly recording
transactions for those accounts and from complying with the USSGL/DoD COA. As a
result, financial statement amounts reported by the Navy might not be accurate. Navy
officials should update the System COA to reflect current Treasury updates applicable to
the Navy and develop and implement a procedure to verify that system owners make
required changes.

Official Crosswalk Needs to Be Maintained
in the System
Navy officials did not implement an accurate crosswalk from the Navy COA to the
USSGL/DoD COA in the System. Navy officials maintained the official Navy crosswalk
offline in Excel instead of in the System. SFIS requires the use of the USSGL/DoD COA
but allows the use of an alternate COA if the system contains a crosswalk to the
USSGL/DoD COA. Navy officials used the offline crosswalk to populate the System
crosswalk on December 16, 2010. However, we compared the two crosswalks and found
41 differences. Of those differences, 16 accounts were included only in the official
crosswalk (offline version), and 25 accounts were included only in the System crosswalk.

Navy officials did not implement an accurate crosswalk in the System because they had
not developed a process to validate that the System maintains a crosswalk to the
USSGL/DoD COA format. The differences between the crosswalks might cause
inaccurate financial reporting because Navy officials mapped accounts differently and
they might record data in the wrong account. Navy officials should ensure that an
accurate crosswalk exists between the Navy COA and the USSGL/DoD COA and should
maintain that crosswalk in the System rather than offline.

Financial System of Record Must Support
Financial Statements
                                        Navy officials did not ensure their financial
  DFAS made 71 of the 109 journal       system of record included all amounts reported
  vouchers (65 percent) to correct      by DDRS for the Navy. The System trial
   System errors, which accounted       balance and the DDRS trial balance differed by
  for $551 million of the NAVAIR­       $5.6 billion. Navy officials attributed 99 percent
       reported financial data.         of the discrepancy to different balance
presentations by DDRS and by the System. Specifically, DDRS adjusts for normal
balances (normal balances are positive amounts, and abnormal balances are negative
amounts), while Navy ERP uses actual balances (debit balances are positive amounts, and
credit balances are negative amounts).

                                           11

However, we also identified differences that resulted because feeds from other systems,
automated entries, and manual journal vouchers were entered into DDRS but not into the
System. We performed our analysis on September 30, 2010, 12 data from NAVAIR
appropriation 1804; we also performed an analysis on appropriation years 2006 and 2008
and found similar differences. DFAS provided its NAVAIR Journal Voucher Log, 13
which included 109 manual journal vouchers made to System data. DFAS made 71 of
the 109 journal vouchers (65 percent) to correct System errors, which accounted for $551
million of the NAVAIR-reported financial data. These errors included a System issue
with processing credit memos back to the customer.

In addition, DFAS posted more than 100 temporary journal vouchers into DDRS to
reconcile Treasury Tie Point variances for data submitted through the System for the
Navy as a whole. The Treasury Tie Points are a set of 14 general ledger reconciliations
developed by the Department of the Treasury, used to verify the integrity of the general
ledger posting logic residing in the accounting system.

Treasury Tie Point reconciliation variances in the System can occur for several reasons,
such as general ledger discrepancies carried forward from converted legacy data, changes
to general ledger posting guidance, or commercial-off-the shelf software not supporting
Government business processes. DDRS calculates the 14 Treasury Tie Point
reconciliations from the System trial balance, and DFAS researches, analyzes, and makes
temporary journal vouchers to correct the data; however, the Navy does not make these
corrections in the System. The memorandum, “DoD Standard Chart of Accounts in
Standard Financial Information Structure,” requires consistent implementation of a DoD
standard COA, comprising USSGL accounts and DoD standard account extensions, to
provide the detail required for budgetary, financial, and management reports in general
ledger accounting systems.

Navy officials did not generate a System trial balance that directly correlated to DDRS
amounts because they did not implement the System to capture and produce financial
data that support Treasury and DoD reporting requirements. The difference between
amounts in DDRS and the System negatively affect the audit trail to transaction detail.
As a result, financial statement amounts reported by the Navy may be unreliable and
remain unsupported. Navy officials should develop and implement procedures to ensure
that required adjustments are made in the accounting system of record and not directly
into DDRS at the time of reporting.




12
 This analysis was for appropriation year 2010.

13
 The Journal Voucher Log was for the NAVAIR September 30, 2010, appropriation 1804 trial balance,

which included appropriation years 2005-2010.


                                                12

Management Comments on the Finding and
Our Response
The Deputy Assistant Secretary of the Navy for Financial Operations [DASN(FMO)]
provided the following comments on the finding. For the full text of the Deputy
Assistant Secretary’s comments, see the Management Comments section of the report.

Department of the Navy Comments
DASN(FMO) requested that we revise or delete portions of the finding section, “System
Needs to Include All Reported USSGL/DoD Accounts.” He stated that the Navy ERP
maintains a comprehensive Navy USSGL COA that supports all financial transactions.

In addition, he stated that management had taken action on the recommendations in
“Official Crosswalk Needs to Be Maintained in the System,” and requested that we delete
those recommendations. Finally, he stated that some statements related to the differences
between financial information in DDRS and the System might be misleading, and he
suggested wording changes.

Our Response
We did not delete the discussion related to the Navy maintaining all accounts supporting
the Navy-reported balances in the System. The goal of achieving auditability at the DoD
level relies heavily on the interoperability and data standardization of the ERPs. If the
Services implement systems to Service- or command-specific needs, that defeats the
purpose of establishing standardization and negatively impacts the goal of ultimately
producing auditable financial statements at the DoD level.

The USD(C)/CFO memorandum dated August 13, 2007, requires consistent
implementation of a DoD Standard COA in the component target general ledger
accounting systems. This guidance also states that the COA must be employed in the
Component systems to aggregate transaction activity into account balances and report
those balances to departmental reporting and other accounting systems. This statement
supports our recommendation to include the 110 accounts, which all have amounts
reported for the Navy in DDRS. In addition, the September 30, 2010, NAVAIR trial
balance we reviewed included 13 of the 110 accounts not supported in the System.

We did not delete recommendations related to the crosswalks between the COA. We
acknowledged management actions taken in the recommendations section as responsive,
and no further actions are required.

We made wording changes to several sections of the discussion that we agreed clarified
issues identified by DASN(FMO) in the report.

Revised Recommendations
On the basis of comments from the Deputy Chief Management Officer (DCMO), who
responded for the Chairman, Defense Business Systems Modernization Committee, we


                                           13

revised Recommendations 1 and 2.a. DCMO stated that she believed that SFIS
compliancy could be reached concurrently with future deployments and recommended
we change Recommendation 2.a to direct the IRB to track the configuration and
implementation of BEA requirements for the System for each funding certification
required for further deployment beyond the current program of record. However, we
believe that BEA requirements should be tracked to ensure progress was being made
toward SFIS compliancy before funding certifications were approved for the then
program of record and any future deployments.

We considered DCMO’s comments on the recommendations and revised
Recommendation 1. This would allow the Navy ERP Program to continue its business
transformation planning while also ensuring that SFIS compliancy progress was being
made at the deployment approval level.

Recommendations, Management Comments, and
Our Response
1. We recommend that the Under Secretary of Defense (Acquisition, Technology,
and Logistics) review the Navy Enterprise Resource Planning System’s Business
Enterprise Architecture Compliance status and develop procedures that will
determine when adequate progress is being made toward the planned FY 2015
Standard Financial Information Structure compliance date before approving
deployment of the Navy Enterprise Resource Planning System to additional
commands that are not included in the current program of record.

USD(AT&L) Comments
The Director, Acquisition Resources and Analysis, disagreed with the recommendation
and requested that we delete it. She stated that USD(AT&L) had already considered
SFIS requirements in prior acquisition decisions on the System and attached the System’s
acquisition decision memorandum dated June 30, 2011. That memorandum details the
delegation of authority to the Under Secretary of the Navy to declare the System’s full
deployment when certain conditions are satisfied. One of those conditions was
compliance with auditability standards, such as SFIS.

Our Response
The Director’s comments were nonresponsive. We revised Recommendation 1, based on
the DCMO’s comments on Recommendation 2.a, to state that a procedure needed to be in
place to ensure adequate progress was being made toward the System’s planned FY 2015
SFIS compliance date.

We do not agree that delegating the authority to determine full deployment outside the
program of record for the System to the Under Secretary of the Navy ensures that
adequate progress is being made toward SFIS compliance. We request that the Director,
Acquisition Resources and Analysis, provide comments on the revised recommendation
in the final report.


                                          14

Department of the Navy Comments
Although not required to comment, the Navy ERP Program Manager, responding for the
Assistant Secretary of the Navy (Research, Development, and Acquisition), disagreed.
She stated that SFIS consists of evolving business rules that require continual efforts to
implement the compliance plan and that some of the compliance requirements are part of
a broader implementation strategy requiring years to achieve compliance. Further, she
stated that since approval of future deployments would be required well in advance of
actual deployments, it was important to continue forward with planning for business
transformation in parallel with SFIS compliance activities.

In addition, she stated that in May 2011, the BTA conducted an independent assessment
of Navy ERP’s SFIS v8.0 assessment. Initial results found the Program to be 71-percent
compliant.

Finally, she stated that the Navy was scheduled to complete the program of record
deployments in October 2012, and at the time of our reporting, there was no requirement
for additional deployments past the program of record. She stated that given the time
requirements to initiate a new acquisition increment and receive funding through the
Planning, Programming, Budgeting, and Execution process, it was unlikely to expect any
additional deployments before 2015. Therefore, she stated, the System was planned to be
SFIS compliant before deployment to additional commands.

Our Response
We understand the need and encourage continuous planning activities for business
transformation in advance of actual future deployments. We also agree that the planning
for business transformation can be conducted alongside SFIS compliance, which will
make deployment and implementation of the System at future commands more efficient.
However, we believe that SFIS compliancy should be considered when deploying the
System to additional commands. As a result, we revised the recommendation to ensure
that SFIS compliancy progress was reviewed before approval of any future deployments.

2. We recommend that the Chairman, Defense Business Systems Management
Committee:

       a. Require the Investment Review Board to track the configuration and
implementation of Business Enterprise Architecture requirements, such as the
Standard Financial Information Structure, to ensure adequate progress is being
made toward the planned FY 2015 Standard Financial Information Structure
compliancy date for each funding certification required for the current program of
record and any future deployments.

DCMO Comments
DCMO partially agreed and stated that DCMO believed deployment and configuration
could be accomplished concurrently. Therefore, DCMO recommended changing the
wording of the recommendation to have the IRB track the configuration and


                                            15

implementation progress of BEA requirements for each funding certification until the
Navy demonstrates that the System complies with the BEA requirements, such as SFIS.

Our Response
The DCMO’s comments were partially responsive. Their recommended revision to the
recommendation, however, would not ensure that Navy officials were making progress
toward SFIS compliancy before IRB approved additional funding. We revised our
recommendation to require the IRB to track the configuration and implementation of
BEA requirements to ensure that Navy officials were making adequate progress toward
the System’s planned FY 2015 SFIS compliancy date. We request that the DCMO
comment on the revised recommendation.

Department of the Navy Comments
Although not required to comment, the Navy ERP Program Manager disagreed, stating
that given the time requirements to initiate a new acquisition increment and receive
funding through the Planning, Programming, Budgeting, and Execution process, it was
unlikely that any additional deployments could be executed before 2015. Therefore, the
System was planned to be SFIS compliant before deployment to additional commands.

Our Response
We have revised the recommendations based upon the DCMO’s comments on the draft
report. The revised recommendation better aligns with comments provided by the Navy
ERP Program Manager.

       b. Require the Investment Review Board to update guidance for assessing
Standard Financial Information Structure compliance to include an independent
validation assessment before making a system certification recommendation.

DCMO Comments
DCMO agreed with the recommendation and stated that an IRB requirement would be
added for an SFIS independent validation assessment as part of BEA v9.0 guidance.

Our Response
The DCMO’s comments were responsive, and the planned actions met the intent of the
recommendation.

Department of the Navy Comments
Although not required to comment, the Navy ERP Program Manager partially agreed,
stating that the assessments were an intensive and complex task. She stated that
scheduling validations had to be coordinated with the Program Office to ensure that
timelines for assessment and reporting of results supported the Program’s need for funds
certification.




                                           16

Our Response
We believe that the independent validations of SFIS compliancy are essential to ensuring
that the System is performing as intended. The “Financial Improvement and Audit
Readiness Plan,” March 30, 2009, states that “SFIS is critical to the success of all legacy
and ERP systems as it standardizes financial reporting, thereby reducing the cost of
auditability.” If the validations show that the System does not comply with the
requirements, then system certifications and funds approval should be limited to
correcting the deficiencies noted during the assessment.

3. We recommend that the Assistant Secretary of the Navy (Research, Development,
and Acquisition) and the Assistant Secretary of the Navy (Financial Management
and Comptroller):

      a. Implement Standard Financial Information Structure requirements for
the Navy Enterprise Resource Planning System.

Department of the Navy Comments
DASN(FMO) and the Navy ERP Program Manager agreed, stating that the Navy ERP
Program has implemented the SFIS data elements and business rules per the SFIS
Resource Guidance. In May 2011, the BTA SFIS team determined that the System was
71-percent compliant with the then SFIS BEA v8.0 data elements and business rules.
The implementation of SFIS was evolving, and as such, DASN(FMO) was continuing to
work closely with the Navy ERP Program Manager, DFAS Cleveland, and the DDRS
Program Management Office to address outstanding issues identified during the May
2011 BTA SFIS team’s formal validation.

Our Response
Although the Navy ERP Program Manager agreed, we considered the comments partially
responsive. The Program Manager stated that the Program Office has implemented the
SFIS data elements and business rules per the SFIS Resource Guidance. However, the
Navy acknowledged in its response that the compliancy rate in BEA v8.0 was 71 percent.
On the basis of those results, we do not believe the Navy has implemented the SFIS data
elements and business rules in accordance with guidance. We request that the Navy
provide us with additional comments, including a plan of action detailing all SFIS
deficiencies, management actions to correct the deficiencies, and an estimated completion
date.

       b. Use the independent Standard Financial Information Structure validation
assessment performed by the Business Transformation Agency to improve the
validation process and implement Standard Financial Information Structure
compliance.

Department of the Navy Comments
DASN(FMO) and the Navy ERP Program Manager agreed, stating that in May 2011,
BTA performed an independent SFIS validation assessment to improve the validation

                                            17

process and implement compliant SFIS. DASN(FMO) plans to leverage the FY 2011
SFIS validation to drive configuration changes in the System for SFIS and USSGL. BTA
is to have all these changes reviewed by DCMO as they occur.

Our Response
Although the DASN(FMO) and Navy ERP Program Manager agreed, we consider the
comments partially responsive. We recognize the Navy’s initiative to work with BTA on
the SFIS validation final report and encourage the Navy to continue working with BTA to
achieve SFIS compliance. We request that the Navy provide us with additional
comments, including a plan of action detailing all SFIS deficiencies, management actions
to correct the deficiencies, and an estimated completion date.

        c. Update the Navy Enterprise Resource Planning System Chart of Accounts
to include all U.S. Government Standard General Ledger and DoD accounts used by
the Defense Departmental Reporting System to prepare Navy Financial Statements.

Department of the Navy Comments
DASN(FMO) did not agree. Rather, he stated that updating the System COA to include
the 110 accounts would create unnecessary programming requirements and an
administrative burden. Maintaining the unused accounts would be considered a required
cost for Navy every year without any return on investment. He also stated that updates to
the FY 2012 DoD COA and further review of the 110 accounts revealed that the number
of missing accounts decreased to 92.

The Navy ERP Program Manager partially agreed. She stated that the Navy ERP
Program of record only deploys to six commands, responsible for executing
approximately one-half of the Navy’s total obligational authority. She also stated that the
110 accounts we identified were not required to support financial management at those
commands. In addition, she stated that the System could be updated to include all
accounts; however, requiring the System to incorporate the remaining 110 accounts into
its general ledger would create an administrative burden.

Our Response
The DASN(FMO) and Navy ERP Program Manager comments were partially responsive.
It is our opinion that DoD cannot continue to implement systems to Service- or
command-specific desires. This defeats the purpose of establishing the standardization
and negatively affects the goal of ultimately producing auditable financial statements at
the DoD level.

The USD(C)/CFO memorandum dated August 13, 2007, requires consistent
implementation of a DoD Standard COA in Component target general ledger accounting
systems. This guidance also indicates the COA must be employed in the Component
systems to aggregate transaction activity into account balances and report those balances
to departmental reporting and other accounting systems.



                                            18

We believe our recommendation to include the 110 accounts is supported by these
criteria, as DDRS reports these amounts for the Navy. In addition, the
September 30, 2010, NAVAIR trial balance we reviewed included 13 of those
110 accounts.

We continue to recommend that Navy update the System COA to include all USSGL and
DoD accounts used by the DDRS to prepare Navy financial statements. Further, the
Navy should determine the exact amount reported for the Navy by DDRS. We request
that the DASN(FMO) and Navy ERP Program Manager reconsider their position on the
recommendation and provide comments on the final report.

      d. Update the Navy Enterprise Resource Planning System to include all
Treasury updates applicable to the Navy.

Department of the Navy Comments
DASN(FMO) agreed; however, the Navy ERP Program Manager partially agreed and
stated the Program Office would continue to update the COA as directed by
DASN(FMO). Attached to the Navy ERP comments was the Navy COA Governance
Board Charter, September 2011, with updated Treasury procedures.

Our Response
The DASN(FMO) comments were responsive. Although the Navy ERP Program
Manager only partially agreed, the updated Treasury procedures in the COA Governance
Board Charter the DASN (FMO) provided to us met the intent of the recommendation.

      e. Finalize and implement an updated charter for the Navy Chart of
Accounts Governance Board that includes a procedure to verify that the system
owners make required changes.

Department of the Navy Comments
The Navy ERP Program Manager deferred to DASN(FMO) for the response, and the
DASN(FMO) agreed. DASN(FMO) approved the updated charter for the Navy COA
Governance Board on September 13, 2011.

Our Response
The DASN(FMO) comments were fully responsive, and the actions met the intent of the
recommendation.

       f. Maintain the official crosswalk between the Navy Chart of Accounts and
the U.S. Government Standard General Ledger/DoD Chart of Accounts in the Navy
Enterprise Resource Planning System. Establish a procedure in the interim to
validate implementation of the crosswalk between the official Navy Chart of
Accounts currently maintained in Excel and the U.S. Government Standard General
Ledger/DoD Chart of Accounts in the Navy Enterprise Resource Planning System.



                                          19

Department of the Navy Comments
DASN(FMO) and the Navy ERP Program Manager agreed. DASN(FMO) stated that
action has been completed and Program Manager, Navy ERP Program stated that action
has been partially completed. Actions completed include a standard operating procedure
updated on August 1, 2011, and a verification between the two crosswalks on June 15,
2011.

In addition, both offices discussed the implementation of a process to document the
mapping of the Navy COA to USSGL/DoD alternate accounts. The first was submitted
to the Navy ERP Program Office on August 2, 2011. In addition, both offices planned
continuous coordination to ensure the System and offline crosswalks contained the same
information.

Finally, the Navy ERP Program Manager was developing an automated process to
reconcile the offline crosswalk against the System crosswalk tables. This process would
create an automated validation of the crosswalk submitted by DASN(FMO). This action
has been partially completed.

Our Response
The Navy comments were responsive, and the actions met the intent of the
recommendation.

      g. Establish a process to ensure that required adjustments are made in the
accounting system of record and directly into the Defense Departmental Reporting
System at the time of reporting.

Department of the Navy Comments
DASN(FMO) agreed in principle, stating this would be a long-term effort in which his
office would collaborate with DFAS Cleveland, Navy ERP Program Office, and Navy
commands to establish and implement a process that identifies the adjustments, gathers
supporting documentation, and properly posts the adjustments in the correct general
ledger accounts in the System.

The Navy ERP Program Manager agreed in principle. She stated that the System
produced timely balances, verified as accurate, and that differences in trial balances were
due to balance presentation, additional interfaces, and funding data. She also stated that
the Program Office would provide technical support to DASN(FMO) and DFAS as
required to support the development and implementation of a standard process.

Our Response
The Navy comments were partially responsive. We request that Navy provide a response
to the final report, specifying the planned completion date for the process that identifies
the adjustments, gathers supporting documentation, and properly posts the adjustments in
the correct general ledger accounts within the System.


                                            20

Appendix A. Scope and Methodology
We conducted this performance audit from October 2010 through October 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We interviewed personnel from USD(C)/CFO; NAVAIR Office, Lexington Park,
Maryland; FMO, Washington Navy Yard, Washington D.C.; BTA, Arlington, Virginia;
DFAS, Cleveland, Ohio; and the Navy ERP Program Office, Annapolis, Maryland.

To gain an understanding of the known System issues, we interviewed DFAS personnel
and obtained supporting white papers, journal vouchers, and other documentation to
verify the issues were valid.

We examined and compared the issues identified by DFAS with the compliance
assertions made by Navy officials in their SFIS self-assessment. After our initial
examination, we interviewed BTA personnel to validate and confirm our SFIS findings.

We requested that USD(C)/CFO identify the accounts needed for Navy financial
statements from a list of all general ledger accounts in the SFIS COA. We compared the
analysis provided by USD(C)/CFO with the COA contained in the System and identified
differences.

We compared the Navy COA with all Treasury updates since the deployment of the
System and verified the implementation of those updates in the System. We obtained the
official Navy COA crosswalk from the Navy COA to the USSGL/DoD COA and
compared it to the crosswalk maintained in the System.

In addition, we compared Navy financial data reported out of the System with Navy
financial data reported out of DDRS. Specifically, we compared the September 30, 2010,
NAVAIR trial balance received from the Navy with the financial data reported out of
DDRS by DFAS for the same period. We provided a list of differences to NAVAIR and
DFAS and obtained their explanations for the variances.

We also extracted the journal voucher records from the DFAS-generated NAVAIR
September 30, 2010, Journal Voucher Log and identified all manually approved journal
vouchers related to the System. We worked with DFAS Cleveland accountants to
categorize these journal vouchers by reason. We compared results of our examination
and observations with established criteria to determine the System’s compliance with
SFIS and USSGL.




                                           21

Use of Computer-Processed Data
We used the September 30, 2010, NAVAIR appropriation 1804 trial balance data
reported by the System and by DDRS. We also used Navy Standard COA data compiled
by the FMO and the Navy ERP Program Office. We determined data reliability by
analyzing trial balance data for anomalies, such as abnormal account balances and
missing accounts. We also reviewed the manual journal voucher input monthly by DFAS
Cleveland to prepare the trial balance in DDRS. We validated the accuracy of the
USSGL/DoD COA and SFIS requirements with BTA personnel. We used this
information to determine whether the Navy had implemented SFIS and USSGL
requirements in the System. We determined that the computer-processed data were
sufficiently reliable to support the findings and conclusions in this report.

Use of Technical Assistance
We did not use technical assistance during the audit.

Prior Coverage of the Navy ERP System
During the last 5 years, the Government Accountability Office (GAO) has issued three
reports discussing the Navy Enterprise Resource Planning System. Unrestricted GAO
reports can be accessed at http://www.gao.gov.

GAO Report No. 11-53, “DoD Business Transformation: Improved Management
Oversight of Business System Modernization Efforts Needed,” October 7, 2010

GAO Report No. 09-841, “DoD Business Systems Modernization: Navy Implementing a
Number of Key Management Controls on Enterprise Resource Planning System, but
Improvements Still Needed,” September 15, 2009

GAO Report No. 05-858, “DoD Business Systems Modernization: Navy ERP Adherence
to Best Business Practices Critical to Avoid Past Failures,” October 31, 2005




                                            22

Appendix B. Issues Incorrectly Classified as
Compliant, Which Affected Financial Data
 SFIS Data Element      SFIS Business Rule                       Issue
A5-Apportionment     Apportionment category       1. ID 442-The System is not using
Category Code        code must be used for           the correct apportionment
                     accounting classification,      category codes to comply with
                     general ledger posting,         DoD budgetary resources
                     financial reporting,            reporting policy. The System is
                     budgetary control, and          using apportionment category
                     funds control.                  codes, but they are not using
                                                     them in accordance with policy.
                                                     Manual journal vouchers are
                                                     required in excess of $1 billion.
T2-USSGL/DoD         USSGL account code           1. ID 349-Invoices that cross
Account Code         must be used for general        commands are causing a
                     ledger posting, financial       posting issue for both Working
                     reporting, and funds            Capital Fund and General Fund
                     control.                        accounts. Specifically,
                                                     Business Area 1719 is posting
                                                     within Business Area 1782
                                                     for General Ledger
                                                     Accounts 1523 and 5720.

                                                  2. ID 351-Budgetary to
                                                     proprietary reconciliation
                                                     posting logic issues. The
                                                     System data do not reconcile to
                                                     the Treasury Tie Points. As a
                                                     result, unsupported manual
                                                     journal vouchers are required to
                                                     correct the data coming from
                                                     the System.
                                                  3. ID 361-The System feeder files
                                                     include anticipated general
                                                     ledgers for expired years on
                                                     appropriation 1804, but these
                                                     general ledgers are not valid for
                                                     expired years. DFAS Cleveland
                                                     must complete journal vouchers
                                                     to address the invalid
                                                     anticipated amounts.



                                       23

SFIS Data Element   SFIS Business Rule                   Issue
                                         4. ID 418-Surcharges are being
                                            applied to budgetary accounts.
                                            According to Financial
                                            Management Regulation
                                            guidance, surcharges have no
                                            budgetary impact. Journal
                                            vouchers are created to correct
                                            the posting errors.
                                         5. ID 446-The System posting
                                            logic records again when a
                                            discount is taken. This causes
                                            an imbalance between
                                            budgetary to proprietary tie
                                            point accounts.
                                         6. ID 456-The System uses
                                            general ledger account
                                            code 1511.2000 (Operating
                                            Materials & Supplies held for
                                            use) with offsetting proprietary
                                            entries to 2110 (accounts
                                            payable) and either 7290 (other
                                            losses) or 7190 (other gains). It
                                            appears that an offsetting entry
                                            to 6100 is not included in the
                                            current posting logic. This
                                            results in standard general
                                            ledger to standard general
                                            ledger reconciliation failures.




                                 24

Appendix C. Navy-Reported Accounts Not
Included in the Navy ERP System
     General Ledger                               General Ledger
     Account Number                                Account Title
1       1010.0350     Fund Balance With Treasury-Cash Transfers
2       1010.0640     Fund Balance With Treasury-Restorations
3       1010.0670     Fund Balance With Treasury-Warrant
4       1010.0680     Fund Balance With Treasury-Child Transfer
5       1010.0820     Fund Balance With Treasury-Foreign Governments
6       1310.0910     Accounts Receivable-Undistributed Collections-Appropriation Level
7       1310.0920     Accounts Receivable-Undistributed Collections-Component Level
8       1310.0930     Accounts Receivable-Undistributed Collections-Business Area Level
9       1320.9000     Employment Benefit Contributions Receivable
10      1410.0200     Advances and Prepayments-Outstanding Contract Financing Payments
11      1521.0900     Inventory Purchased for Resale-LAC
12      1523.0800     Inventory Held for Repair - LAC-Inventory in Transit
13      1523.9000     Inventory Held for Repair
14      1524.0900     Inventory-Excess, Obsolete, and Unserviceable-LAC
15      1526.0100     Inventory-Work-in-Process-Work for Activity Retention
16      1529.0820     Inventory-Allowance-Excess, Obsolete and Unserviceable
17      1529.0880     Inventory-Allowance-Customer Returns-Credit Granted
18      1529.0900     Inventory-Allowance-DLR Exchange Credit
19      1529.0910     Inventory-Allowance-Material Returns, Estimated Repair and Exchange
                      Cost (Supply Management Only)
20      1529.0920     Inventory-Allowance-Available and Purchased for Resale-Purchased at
                      Cost
21      1610.0400     Investments in U.S. Treasury Securities Non-Marketable Market Based
22      1611.0400     Discount on U.S. Treasury Securities-Non-Marketable Market Based
23      1720.0500     Construction-in-Progress-CY Transfers
24      2110.0300     Accounts Payable-Judgment Fund-CDA
25      2110.2100     Accounts Payable-Undistributed Disbursements-Appropriation Level
26      2110.2200     Accounts Payable-Undistributed Disbursements-Component Level
27      2110.2300     Accounts Payable-Undistributed Disbursements-Business Area Level
28      2211.9000     Withholdings Payable
29      2220.0100     Unfunded Leave-Annual Leave
30      2310.0400     Liability for Advances and Prepayments-Progress Billings
31      2960.9000     Accounts Payable From Canceled Appropriations
32      2980.0100     Custodial Liability-A/R


                                        25

     General Ledger                             General Ledger
     Account Number                              Account Title
33      2995.9518     Estimated Cleanup Cost Liability-OAEL Active Installations Non BRAC-
                      Environmental Response at OPS Ranges
34      3102.0100     Unexpended Appropriations-Transfers-In-Warrant
35      3102.0200     Unexpended Appropriations-Transfers-In-Transfers
36      3103.0100     Unexpended Appropriations-Transfers-Out-Warrant
37      3310.0500     Cumulative Results of Operations-Transfers In
38      3310.0600     Cumulative Results of Operations-Transfers Out
39      3310.0700     Cumulative Results of Operations-Non Recoverable Depreciation,
                      Amortization, Other Adjustments
40      4047.9000     Anticipated Trans to the General Fund of the Treasury-Current-Year
                      Authority
41      4114.0100     Appropriated Trust or Special Fund Receipts-PBAS Appropriation Level
                      Authority
42      4114.9000     Appropriated Trust or Special Fund Receipts
43      4119.0100     Other Appropriations Realized-PBAS-Appropriation Level Authority
44      4119.0120     Other Appropriations Realized-4550 Internal Distribution Received
45      4119.0130     Other Appropriations Realized-4550 Undistributed Internal Distribution
46      4119.0200     Other Appropriations Realized-UN
47      4119.0210     Other Appropriations Realized–UN-NM
48      4170.0600     Transfers-Current-Year Authority-Undistributed Authority-Undistributed
                      Unobligated Balance
49      4190.0600     Transfers-Prior-Year Balances-Undistributed Authority-Undistributed
                      Unobligated Balance
50      4191.0100     Balance Transfers-Extension of Availability Other Than
                      Reappropriations-PBAS-Appropriation Level Authority
51      4192.9000     Balance Transfers-Unexpired to Expired
52      4195.9000     Transfer of Obligated Balances
53      4199.9000     Transfer of Expired Expenditure Transfers-Receivable
54      4201.4350     Total Actual Resources-Cancelled Appropriation BFY
55      4230.9000     Unfilled Customer Orders Without Advance-Transferred
56      4233.9000     Reimbursements and Other Income Earned-Receivable-Transferred
57      4252.9901     Reimbursements & Other Income Earned-Collected-Col B & C 1002
58      4277.9000     Other Actual Collections-Federal
59      4350.4800     Canceled Authority-Undelivered Orders
60      4350.4900     Canceled Authority-Delivered Orders
61      4392.0600     Permanent Reduction-New Budget Authority Undistributed Authorized
                      Undistributed Unobligated Balance
62      4450.0600     Unapportioned Authority-Undistributed Authorized-Undistributed
                      Unobligated Balance




                                        26

     General Ledger                            General Ledger
     Account Number                             Account Title
63      4510.0600     Apportionments-Undistributed Authority-Undistributed Unobligated
                      Balance
64      4610.0600     Allotments-Realized Resources-Undistributed Authorized-Undistributed
                      Unobligated
65      4610.8100     Allotments-Realized Resources-NIF Only
66      4650.0600     Allotments-Expired Authority-Undistributed Auth-Undistributed
                      Unobligated Balance
67      4650.0610     Allotments-Expired Authority-Undistributed Disbursement
68      4690.9000     Anticipated Resources-Programs Exempt From Apportionment
69      4720.9000     Commitments-Programs Exempt From Apportionment
70      4931.9000     Delivered Orders-Obligations Transferred, Unpaid
71      4971.0700     Downward Adjustments of Prior-Year Unpaid Delivered Orders-
                      Obligated Recoveries-Undistributed
72      5310.0600     Interest Revenue-RNATP
73      5600.0500     Donated Revenue-Financial Res-Distributed Offsetting Receipt
74      5700.0240     Expended Appropriations-Non-recoverable Gains and Losses
75      5720.0130     Financing Sources Transferred In Without Reimbursement-WCF
                      Cash/PY Purchase Only
76      5720.0310     Financing Sources Transferred In Without Reimbursement-Inventory
                      Transfers-LAC
77      5720.1400     Financing Sources Transferred In Without Reimbursement-CIP Transfers
                      Close 3310
78      5730.0200     Financing Sources Transferred Out Without Reimbursement-Fund (Cash)
                      Transfer
79      5730.0310     Financing Sources Transferred Out Without Reimbursement-Inventory
                      Transfers LAC
80      5730.1400     Financing Sources Transferred Out Without Reimbursement-CIP Close to
                      3310
81      5740.9000     Appropriated Earmarked Receipts Transfer In
82      5755.0200     Nonexpenditure Financing Sources-Transfers-In-Fund (Cash) Transfer
83      5765.0200     Nonexpenditure Financing Sources-Transfers-Out-Fund (Cash) Transfer
84      5790.0100     Other Financing Sources-Relating to Adjustment
85      5900.1300     Other Revenue-Distributed Offsetting Receipt
86      6100.0131     O/E-Judgment Fund-CDA
87      6330.9000     Other Interest Expense
88      6400.0400     BE-Personnel Benefits-Health
89      6400.0500     BE-Personnel Benefits-Life
90      6400.0600     BE-Personnel Benefits-Retirement
91      6500.1653     Cost of Goods Sold-Activity Retention
92      6500.9000     Cost of Goods Sold



                                        27

      General Ledger                            General Ledger
      Account Number                             Account Title
93       6790.1011     Other Expenses Not Requiring Budgetary Resources-OM &S Used
94       6800.0100     Future Funded Expenses-Annual Leave Liability
95       7180.9010     Unrealized Gains-No BI 7180
96       7190.0010     Other Gains-No BI
97       7190.5110     Other Gains-Non Recoverable–Disposal-MAC No BI-
98       7190.7530     Other Gains-Non Recoverable-Disposal-No BI-LAC
99       7210.7500     Losses on Disposition of Assets-Other-Non-Recoverable Disposal of
                       Inventory
100      7210.9000     Losses on Disposition of Assets–Other
101      7290.0110     Other Losses-Nonrecoverable Gains and Losses-No BI
102      7290.0210     Other Losses-Other Inventory Losses-No BI
103      7290.0310     Other Losses-Shrinkage/Deterioration Losses-No BI
104      7290.7010     Other Losses-Non-Recoverable-No BI
105      7290.7530     Other Losses-NR G/L Disp Exc Inv LAC No BI
106      7290.9010     Other Losses-No BI
107      7290.9020     Other Losses-CNATP
108      7300.0100     Extraordinary Items-Liabilities Assumed-Used
109      7400.0100     Prior Period Adjustments Due to Corrections of Errors-Non-Recoverable-
                       Deferred
110      7400.9010     Prior-Period Adjustments Due to Corrections of Errors-No BI




                                        28

Under Secretary of Defense, Acquisition Technology and
Logistics Comments

                                                                                                                  Final Report
                                                                                                                   Reference



    a                         OFFICE OFTHE UNDER SECRETARY OF DEFENSE
                                               3000 DEFENSE PENTAGON



    W!J!I
                                              WASHINGTON , DC 20301 -3000
                                                                                     DEC - 8 1011
     TEC HNOl.OGY
     AND L.OGI$T1CS

           MEMORANDUM FOR PROGRAM DIRECTOR, DOD PAYMENTS & ACCOUNTING
                            OPERATIONS,
                          OFFICE OF THE INSPECTOR GENERAL

           SUBJECT: Response to OIG Draft Report on "Navy Enterprise Resource Planning System '5
                    Compliance with the Standard Financial lnfonnation Structure and the U.S.
                    Standard General Ledger" (projet:t No. D2011-DOOOFN-0002.000)

                      As requested, I am providing comments on the recommendation contained in the subject
           report .   OUT response to the recommendation is provided below.


           Recommendation t :
           We recommend that the Under Secretary of Defense for Acquisition, Technology and Logistics           Revised 

           (USD(A T&L)) approve deployment of the Navy Enterprise Resource Planning (ERP) System to
           additional commands that are not included in the current program of record only when it fully
           complies with the defined Standard Financial Lnformation Structure (SFIS) requirements.

           Respon se:
           Non~Concur.                   Click to add JPEG file
                          We recommend you delete Recommendation t for the following reasons: the
           USD(AT&L) has already taken into consideration SFIS requirements in prior acquisition
           decisions on Navy ERP and continues to highlight the need to provide 000 management with
           accurate, timely. and reliable financial information, as demonstrated in the acquisition deci sion
           memorandum (ADM) of June 30, 20 II (anached). This ADM also includes specific language to
           achieve audit readiness by 2017.

                   Please contact • • • • • • • • • • • • • • • • • • • • • • • if
           additional information is required.




                                                          Director
                                                          Acquisition Resources and Analysis

           Anacrunent:
           As stated




                                                                     29
Office of the Deputy Chief Management Officer Comments






                             DEPUTY CHIEF MANAGEMENT OFFICER
                                           90 10 DEFENSE PENTAGON
                                          WASHINGT ON , DC 20301 ·90 10


                                                                                       DEC 1 2011


       MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL (DEFENSE PAYMENTS
                        AND ACCOUNTING OPERATIONS)

       SUBJECT: Comments to Draft Audit Report. "Navy Enterprise Resource Planning System Does
                Not Comply With the Standard Financial lnforrnation Structure and U.S. Standard
                General Ledger" (Project No. D20 11-DOOOFN-0002.000)

               This memorandum responds to your request for comments on two audit
       recommendations contained in the subject draft audit report issued October 31 , 20 11. We
       partially concur with recommendation 2.a and concur with recommendation 2.h. OUT detai led
       response to the recommendations is provided in the attachment.

                                 i   is the point of contact fo r this response. He can be reached by
       telephone at                                                          I




                                                7Ulfit~
                                     Click to add JPEG file
                                                          Elizabeth A. McGrath


       Attachment:
       As stated




                                                       o

                                                                    30
                                                                                                   Final Report 

                                                                                                    Reference






  DEPARTMENT OF D EFENSE OFFICE OF THE INSPECTOR GE NERAL (DoDIG)
 DRAFT REPORT DATED OCTOBER 31, 2011, PROJECT NO. D2011-DOOOFN-0002.000
"NA YY ENTERPRISE RESOURCE PLANNING SYSTEM DOES NOT COMPLY WITH
 THE STANDARD FINANCIAL INFORMATION STRUCTURE AND U.S. STANDARD
                        GENERAL LEDG ER"

        OFFICE OF THE DEPUTY C HIEF MANAGEMENT OFFICER (DCMO)
                 COMMENTS TO DoDlG RECOMMENDATIONS

RECOMM-ENDATION 2.a: "We recommend that the Chairman, Defense Business Systems                   Revised


Management Committee approve funding for further deployment of the Navy Enterprise
Resource Planning System to additi onal commands that are not included in the current program
of record only when the Navy can demonstrate that the Navy Enterprise Resource Planning
System complies with the Business Enterprise Architecture (SEA) requirements, such as the
Standard Financial Information Structure."

DeMO RESPONSE: Partially concur. While we agree with the importance of Navy Enterpri se
Resource Planning demonstrating it complies with the Business Enterprise Architecture
requirements. we bel ieve that deployment and configuration can be accomplished concurrent ly.
Therefore, we recommend making the following changes to the wording for Recommendatio n
2.a,

                           Click to add JPEG file
"We recommend that the Chairman, Defense Business Systems Management Committee require
the Investment Review Board track the configuration/implementation progress of BEA
requirements fo r the Navy Enterprise Resource Planning System for each funding certification
required for further deployment beyond the current program of record unti l the Navy
demonstrates that the Navy Enterprise Resource Planning System complies with the Business
Enterprise Architecture requirements, such as the Standard Financial Information Structure."


RECOMMENDATION 2.b: "We recommend that the Chairman, Defense Business Systems
Management Committee require the Investment Review Board to update guidance for assessing
Standard Financial lnfonnalion Structure compliance to include an independent validation
assessment before making a system certification recommendation.

De MO RESPONSE: Concur. An Investment Review Board requirement will be added for a
Standard Financial Information Structwe independent validation assessment as part of Business
Enterprise Architecture 9.0 guidance.




                                                         31
Department of the Navy Comments






                                          DEPARTMENT OF THE NAVY
                                        OFRCE OF THE ASSISTANT SECRETARV
                                     tANANCIAL IMNAGEMENT o\ND COMPTROU.E.R)
                                              1000 NAIfII PENTAG()!II
                                            WASHINGTON. DC 2()35O.1000

                                                                                  7000
                                                                                  FMOZ I )201 10072


        MFMORANDUM FOR DlSTRIBl!fION
                                                                                    SEP 1 3 1011

        Subi DEPARTMENT OFTHE NAVY CHART OF ACCOUNTS GOVERNANCE BOARD

        End: (J) Depanment of Ihe Navy Chart of Accounls Governance Board Charter

        I. Enclosure ( I) establ ishes \be Department of the Navy C hart of Accounts (DON CoA)
        Go\'ernance Board. The purpose of me Govemance Board is to support lile DON audit readine.-;s
        initiati ves.

        2. The Governance Board will consist of members from Assistant Secrel.aIY of the Navy Offices
        of Financial Operations and Budget, Defense Finance a nd Accounti ng Service. DON commands
        and Office of the Secrclary o r Derense Comptroller.

        J. The Governance Board will be responsible for standard izing \be DON general ledger
        structure, increasing stakeholder awareness, mainlaining the approval process and ensuri ng an
                                  Click to add JPEG file
        accurate database of aJ! budgetary and proprietary entries based on Treasury and Slandard
        Financial lnform8lion Structure regu lations .

                                             • • • • • • • • • • • • • • • • orvia




                                                      ~:,Jl:~
                                                       Deputy Assistant Secretary of lht: Navy
                                                       (Financial OperaLions)


        Distribution:
        DON/AA
        CMC
        CFFC
        COMPACFLT
        COMNAVSPECWARCOM
        COMNAVSEASYSCOM
        COMNAVAIRSYSCOM
        COMSPAWARSYSCOM
        CNR
        COMNAVFA CENGCOM
        BUMED




                                                                                                     Ref (_I




                                                                     32
Subj : DEPARTMEr-;T OF THE NAVY CHART OF ACCOUNTS GOVERNANCE BOARD

COMNAVSUPSYSCOM
COMSC
omssp
COMNAVRESFOR
ON I
CO.\llNAVPERSCOM
NAVSYMGMTACT
FLDSUPPACT
CNIC

Copy 10:
DFAS-CL
DFAS-CO
NAVY ERP OFFICE




                   Click to add JPEG file




                                                                Ref Ill}




                                         33
                        OFFICE OF THE INSPECTOR GENERAL

                          OF THE DEPARTMENT OF DEFENSE

                                     DRAFT REPORT

                          PROJECT NO. D201l-DOOOFN·OOZ.OOO

NAVY ENTERPRISE RESOURCE PLANNING SYSTEM DOES NOT COMPLY WITH
   THE STANDARD FINANCIAL INFORM<\.TION STRUCTURE AND THE U.S.
                   STANDARD GENERAL LEDGER

    ASSISTANT SECRETARY OF THE NAVY FINANCIAL MAI'AGEMENT &
   COMPTROLLER, OFFICE OF FINANCIAL OPERATIONS (ASN FM&C) (FMO)
                             RESPONSE


3. We recommend that the Assistant Secretary of the Navy (Research, Development, and
Acquisition) and the Assistant Secretary of the Navy (Financial Management and ComptroUer):

a. lmplement Standard Financial Information Structure requirements in Navy ERP.

       Response: Concur. Navy ERP program has implemented the SFIS data elements and
                            Click to add JPEG file
       business rules per the SFIS Re.,:;oufce Guidance. Tn May 2011 , BTA SFTS I.cam deemer!
       the Navy E RP system 7 1% compliant to the curren t defined SFIS BEA 8.0 data elements
       and business ru les. The implementation of SFIS is evo luti onary and as such Navy FMO
       continues to work closely with Navy ERP, DFAS Clevcland and thc DDRS PMO to
       address outstanding issues identified during the May 2011 BTA SFIS team's form al
       validalion.


b. Use the independent StandarcJ Financial lnformation Structu re vaJidation assessment
perfonned by the Business Transformation Agency to improve the validation process and
implement compliant Standard Financiallnformation Structure compliance.

       Respome: Concur. A n independent Standard Financi.al Information Strllcture (S FIS)
       vaJjdation assessment was perfonned by the Bu siness Transformation Agency (BT A) to
       improve the validation process and implement compliant Standard Financial Information
       Structure in May 20 11. The Navy (Financial Management and Comptroller) will leverage
       the Fi!:ical Year 2011 SFIS Val idation tu lIrivet:onfiguraliun dan ge!) in Navy ERP fur
       Standard Financial Information Structure (SFIS ) and the United States Standard General
       Ledger (USSG L). BTA will have all these changes reviewed by the Office of Secretary
       of Defen se, Deputy Chief Management Oftlce (De MO) as they occur. The Navy FMO
       offi ce and Navy ERP program office are continuously working with BTAlDCMO on the
       fin al report.



                                            1                                             End (2)




                                                          34
c. Update the Navy En terprise Resource Planning System C hart of Accounts 10 incl ude all U.S.
Standard General ,Ledger and DoD accounts used by the Defense Depal1menl al Reporting
System (DDRS ) to prepare Navy Financial Statements.

       Re.\ prnw!: Do Not Concur. Requiring Navy ERP 10 incorporate the remaining 110
       accounts inio its generaJ ledger wou ld create unnecessary programming requirements and
       an admi nistrative burden in the establishment. maimenance, and sustainment of general
       ledger accounts thai Navy ERP Commands arc not using, may never uti lize, or are no t
       authorized to use.

       To establish a new general ledger account in Navy ERP requires valid posting logic thai
       may impact the account dwing a I'i scaJ year. 111e posting logic would be generic based on
       mode ls i n tllC transllctio nal Librari es maintained by SFIS or the T reasury Financi al
       Manual (TFM). Once established wi th a lllhc relevant SFfS data elements, Navy ERP
       would be required to block the account indefinitely (0 alleviare any erroneous postings.
       After the accou nt is esta bl ished the SFIS data e lemenlo;; would have 1.0 be mainta ined.
       periodicall y reviewed , updated, and sustai ned for the accounLo; Lhat are inde fmitely
       blocked as they are a pan of the SFIS compliance review process conducted by the BTA.
       Maintaining Ole unused nccounts will be considered a sunk cost for Navy every year
       witho ut any return on investm ent


                             Click to add JPEG file
       Addilio naJl y.the dmftaudit repon identifi ed 11 0 USSGUDo D accounts nol being in [he
       syste m. However, updates to the FY 20 12 DaD eOA and furth er rev iew of th e Ii 0
       accounts revealed that Lhe number of mi ssing accounts decreao;;ed to 92. In ils FY 20 12
       general ledger accou nt update the ETA deleted 13 general ledger accounts, one general
       ledger account 1010.0670 is for Anny use onl y, and 4 general ledger accounts were
       already in the Navy ERP alternative COA. but were erroneously cou nled as a part of the
       110 missi ng accounts .


d. Update the Nav)' En terprise Resource Planning System to include all Treasury updates
ap pli cabl ~ tu lhc Navy .


       Response: Conc ur. Navy FMO concurs with updating Navy ERP with Treasury updates
       that have a bona fide business case for tbe Navy.


e. Finalize and imple ment an updated c hal1er for Lhe Navy Chart of Accounts Governance Board.
whic h inc ludes a procedure 1.0 verify that [he :;yste m owners make requi red c hanges.

        Response: Co ncur. TIle Deputy Assistant Secretary of the Navy (Financial Operations)
        approved the updated chDrter for the ' Navy C hart. or Accounts Governance Board ' o n
        $t;:ptember 13, 20 1 i . Ref (a) provides lbe. updated USSG L Govemancc Board Charter.



                                                                                            'ncl(2)




                                                            35
       In addition, the Governance board has implemented a new Standard Operating Procedure
       (SOP) developed by Navy ERP Project Management Office (PMO) in conjunction wi th
       Navy FMO. The SOP documents the process of making required changes to the chart of
       accounts within Navy ERP. Ref (b) provides the Navy ERP PMO SOP


r. Maintain the official crosswalk between the Navy Chart of Accounts and the U.S. Standard
General LedgerlDoD Chart of Accounts in the Navy ERr. Establish a procedure in the interim to
validate implementation of the crosswalk between the official Navy Chart of Accouu t:s f.: urrently
maintained in Excel and the U.S. Standard General Ledger/DoD Chan of Accounts in the Navy
En terpri se Resource Planning System.

       RespOflse: Concur. Action has been completed. The Standard Operating Procedure (SOP)
       'General Ledger Chart of Accounts Update Request' by Navy ERP was updated on
       August 1,201 1. Also. continuous coordination with Navy ERP and FMO will result in
       cross-walks maintained off-line and contained within Navy ERP with same information.

       Navy ERP has comp leted the validation of the listing against the production eOA on
       June 15,2011. Navy FMO and Navy ERP impl emented a process to c!lpturc the mappin g
       of DON eOA to USSGUDoD a1temale accounts. The baseline fije was subm.i tted to
       Navy ERP un August 02, 20 II.
                             Click to add JPEG file
g. Establish a process to ensure that required adjustments are madejn the accou nting system of
record and directJy into the Defense Departmen tal Reporting System at the time of reporting.

       Respollse: Concur in Principle. FMO agrees that making all required adjustments in the
       source accOI lnting and not in the departmental reporti ng syst.em should be the goa l of any
       prudent financial organi zation. However, it is uncertain whether this is entirely feasib le as
       some adjusti_ng entri es occur because of timing issues and may not be identified until
       after the source accounting system is closed for thc month or fiscal year end. This will be
       a long-term effort in which FMO will collaborate with the DFA S Cleveland, the Navy
       ERP Program Office, and Navy commands to establi sh and implement a process thal
       identifies the adjustmen ts, gathering supporting documentation, and properl y posting the
       adjustments in the correct general ledger accounts in Navy ERP.




                                               3                                               Enel(»




                                                             36
                                                                                                           Final Report 

                                                                                                            Reference






                          OFFICE OF THE INSPECTOR GENERAL

                            OF 'I'm DEPARTMENT OF DEFENSE

                                        DRAFT REPORT

                            PROJECT NO. D20lJ-DOOOFN·002.000

 NA VY ENTERPRISE RESOURCE PLANNrNG SYSTEM DOES NOT COMPLY WITH
     THE STANDARD FINANCIAL rNFORM~TION STRUCTURE AND THE U.S.
                     STANDARD GENERAL LEDGER

     ASSISTANT SECRETARY OF TIm NA VY FrNANCIAL MANAGEMENT &
    COMPTROLLER, OFFICE OF FrNANCIAL OPERATIONS (ASN FM&C) (FMO)
                              RESPONSE



  System Needs to Include All USSGLlDoD Accoun ts Statement. Page 10. "As the Navy
financial system of record where implemented, the System should incltlde and maimain
 subsidiary in/ormation for all (nlt/sac/;ow; ami a w",prehen~' ive COA LU proce~;~' all Navy lind
DoD jinaflcia! rramaClions (hal suppar! Navy financial reports. "

                              Click to add JPEG file
                Recom mend thaI the DoD IG ei ther revise or delete this statement from the Draft
                Report

               Rationale: Trus statement is misleading and implies that Navy ERP uses a
               different point account stmcture in its chart of accounts (eOA ). and does not
               carry out lhe fidu ciary responsibilities that should be inherent in any accounting
               system regardless of the eOA structure. Navy ERP currentl y maintains subsidiary
               informati on for all transaction as wel l as It comprehensive DON USSGL eOA
               lJlill suppurts illl financial transacLioJ ls .


System Needs to Include AJI USSGLlDoD Accounts Statement. Page 10. "Navy officials
                                                                                                         Revised 

omitted those accounts because Navy officiaLs did IlOt develop a process ,haf ensured compliance
with TreaSllI)' guidan ce to include all required general/edger accounts ill rhe System. The
omission (~f these accounts make it diffiCUlt or impossible to trace amoullts reported by DDRS 10
/hejillonciai system of record alld uLtimately to the source documentation. Wi/h ow these
accnwlf.t in rhe .~ystem, rhe system does IIOl produce reliable supporredfillQllciai statements
without malUm! intervention. ' r

                Recommend DoDrG revise or eliminate this section of the Draft Discuss ion
                Paper.

                Rationale: Navy ERP does maintain t.he required general ledger accounts in the
                system to perfoml its fin ancial responsibilities, thereby complying with Treasury
                Manual Gu idance. The finding infers that Navy ERP should contain all general
                ledger accounts contained in the Treasury, and consequent ly Navy ERP wou ld

                                                                                              Enel (3)




                                                              37
                                                                                                          Final Report 

                                                                                                           Reference






               then implement accounts that never would be used, as there would be no business
               case to do so.

               Ornission of accounts that would not be u ~ed would have. no impl1ct o n fin anc ial
               transactions and stateme nts. Thi s would be the same as if a general ledger account
               contains a zero balance. Navy ERP contains the general ledger accounts needed to
               carry out the DaN 's business and crosswalks to DDRS arc maintained in the
               system, which should provide the relationship between the DON COA and lIl ~
               DoD eOA and ultim at~ l y tu the fin anci a l statements. Lastly, in terms of not
               producing reli able financial statements, this is not necessarily a function of
               whether Navy ERP incorporates the fu ll eOA fou nd in the Treasury Manual;
               rather it is more a function of the underlying business and transacti onal processes.
              h is true that DFAS has to post manual adjustments into ODR S but the cause of
              those adjustmen ts are more attributable to the underlying business processes and
              supporting transactions than havi ng the fu ll DoD eOA incorporated into ~avy
              ERP. Navy ERP cou ld have incorporated the fuB USSGL COA into the syslem
              and DFAS would still have to prepare and execute manual adjustments in DDRS.

Navy Officials Should Update the Chart of Accounts as Required by Treasury Policy. Page
11. This stx:tion talks to the net:u lU e nsure that changes required by Treasury be incorporated
                                                                                                        Page 10 

into the Navy ERP eOA. Additionall y, it speaks to the need to estab lish a USSG L Governance
                             Click to add JPEG file
process ensuring that all c hanges to the general ledger is promptly incorporated into the Navy
ERPCOA.

               Recom mend DoDIG consider revising this section. The Director of FMO
               approved lhe updated charter for the 'Na\'y C hart of Accounts Governance Board '
               on Septemher 13,20 II. See Ref (a). Tn addition , rhe Governance hoard has
               implemented a new Standard Operating Procedure (SOP) developed by Navy
               ERP in conjunction w ith Navy FMO. The SOP documents the entire process of
               making required changes to the chart of accounts w ith in Navy ERr. See Ref (b).

               Ratiollale: Previous proced ures requ ired FMO, upon approval by lhe Navy
               USSGL Governance Board, to immediate ly forward the updated DON eOA and
               associated documenta tion to Navy ERP to update the system. Thi s documentation
               incl uded the SFIS Crosswalk, USSGL Governance Form, a nd the General Ledger
               posti ngs. New procedures have been adopted and a Standard Operating Procedure
               (SOP) developed on August 1,20 I I to ensure more controls were established to
               track general ledger submi ssion updates to Navy ERP. The DON eOA and SFIS
               Crosswalk have been co mpletely re formatted to all ow the stalll S of GL accounts
               to be monitored. Any general ledger changes are now submitted to Navy ERP via
               " hellt tickets", which all ow a more accurate tracking mechanism.
                                                                                                        Revised
 Official Crosswalk Ne~ds to be Maintained in the System Statemeut. Page 11. "Navy
officials maintained the official crosswalk oJjline if! EXCEL instead of in the System. SFIS
requires rhe use o/the USSGUDoD eOA bur allows rhe use of an alternate eOA if/he system
cOlltains a crosswalk. "


                                                 2                                           Enel (3)




                                                             38
                                                                                                            Final Report 

                                                                                                             Reference






               Reconu n cnd the DoDJG cons ide r revising thi s state ment.

               Rationale: Na vy ERP and FM O personnel have worked on a comprehen sive
               e O A and crosswalks from the DON US SGL to the DoD US SGL whi ch contain
               all of the SRS e lements. FMO and Navy ERP implemented a process to capture
               the mapping o f DON e O A to USSG UOoD a lte rna te account. The baseline fil e
               was submi tted to Navy ERP 2 Aug 2011.

 Financial System of Record Must Suppor t Financia l Sta tements. Page 11. "Navy officials                Revised 

did nor support amounrs reported for rhe Navy by DDRS in their fillanc ial system of record."

               Recommend Do DTG revise or eliminate this section of the Draft Di scussion
               Paper.

               Ratiollole: It is more accurate to state that the frnan cial system o f record did not
               inclu de ,dl amounts repOited in the DDRS system. The c urrent wording implies
               tbat the Navy offi c ials fa iled La suppOIi amou nts, not lhat the System fail ed to
               incl ude them.

Financial System of Record Must Support Financial Statements. Page l1 . uThe System triar
                              Click to add JPEG file
balance and the DDRS trial balance diffe red by $5.6 billion. "

               Recommend DoDIG revise this section of the Draft Discussio n Paper

               Rationale: Il should be c larified that this finding app ljes 10 NA VAIR data for Ihe
               20 I 0 1804 appropriation as of Septembe r 30, 2010.

Financial Systcm of Rccord Must Support Financilll Statcments. Pagc 11. " However', we                    Revised 

lILm identified differences lhar resulted because feeds f rom OIlier systems, automated em ries, and      Page 12 

journal vouchers were entered i nfO DDRS btU flot into the System. ,.

               Recommend Do DIG revise this sectio n of the Draft Discussion Paper

               Rationale: Recomme nd including lhe word " manual" before journal vouchers.
               The DDRS automated e ntries are a lso considered journal vouchers . The terms
               sho uld be mutuall y exclusive.

Financial Systeltl of Record Must Support Financia l Statements. Page 11. " We petjormed
                                                                                                          Page 12 

our analysis 011 September 30. 2010. dalajrom NAVA IR appropr'iatiofl 1804; we also performed
an analysis on appropriation years 2006 alld 2008 w ldfound similar differences. "

               Recommend Do DJG revise Lhis secti on of Ihe Draft Discussion Paper

               Rationale: The fi nding does not specify that the analysis was performed on
               appropri ation year 2010, which opens the statement to mis interpretati on. Tbe

                                                  3                                             Encl(3)




                                                              39
                                                                                                          Final Report 

                                                                                                           Reference






               repOIting year and the appropriation year a re not syno nymo us. Recommend this
               statement be modified to specify the appropriation years used fo r the analysis.

F inancial System of Recor d M ust Supp ort F inancial Statements. Page 11. " DFAS provided             Page 12

Ihe NA VAlR Journal Voucher Log. ~ which included 109 manual journal vouchers made to
System data. DFAS made 71 o/the 109 journal vouchers (65 percent) to correct System errors,
which accO/mted/or $551 million oJrlie NA VAIR-reportedfillancial data."

"' Footnote 12 (bottom of page 11): '''The Journal Voucher Log was for the NAVAlR September
30 , 20 J 0, appropriation 1.804 trial balance, which included appropriation years 2005-20 I0."

               Recommend Do DIG revise lhis section of the Draft D iscussion Paper

              Rationale: The journal voucher log should not be identified as the ''NA VAIR
              Journal Voucher Log" . I( is used for NAYAIR data, bur it is maintained by
              DFAS , not NAVAIR . The current wording implies NAVA TR
              ow nership/maintenance.

              The footnote information shoulrl be provided in the body of the I.ex.!. It should be
              made clear that the analysis of Ihe journ al voucher log was independent of the
                             Click to add JPEG file
              trial balance analysis performed on appropriation years 2006, 2008, and 20 10.
              Otherwise, the journ al voucher log fin dings must be limi ted to appropri ation years
              2006.2008. and 2010.

               Of the 109 manual journal vouchers referenced by DoDlG, onl y 46 journal
               vouchers appl y to the appropriation years under review. Of the 46 journ al
               vouchers that apply to the appropriation years under rev iew, only 30 joumal
               vouchers (65%) were posted by DFA S to correct system errors . These 30 journal
               vouchers accOlln!ed for onl y $8 J milli on of the NA VAm reported fin ancial data
               under review, rather than the $55 1 million reported by DoDlG . The below table
               provides additional details.




                                                4                                            Ene! (3)




                                                            40
                                                                        '7< ofn 20[0
                AI)p r oprialion        JV
                                                   JV Amounl             $5.6 hillion
                       Year            Count
                                                                         llilTe,oeme

                2010                           4   S IO,597,163.67              0. 19%

                2008                         18    S66,528,117.27                 N/A

                2006                           8       $3 ,800,060.54             N/A

                Total                        30    $80,925,341.48                 N/A
                                   I




Financial System of Record Must Support Financial Statements. Page 12. "These errors
included a System issue wi/It processing crediT memos bllck to the cllstomer. "

               Recommend DoDlG revise this section of the Draft Discussion Paper

               Ratio"ale: Of the 30 journal vouchers posted by DFAS to correct system errors
               for the appropriation years under review , only 2 for a tolal of $462 K were related
                              Click to add JPEG file
               to customer credit memos. Both were manuall y reversed ihe roUawing year
               b~ca u se they were incorrectly posted by DFAS as perm anent rather than
               permanent with reversal.

               Of the 71 journal vouchers posted by DFAS to correct system errors fo r the
               appmprialiofl yt:ars ifldudeu ill the Journal Voucher Log (2005-2010), only 4 ror
               a total of $1 L3M were related to c ustomer credit memos. All 4 were reversed the
               fo llowing year because they were incorrectJ y posted by DFAS as permane nt
               rather lhan pennanent with reversal.

               The Journal Voucher Log includes the following statement re lated to the
               reversals: " Dala has come ill from Navy ERP to o[[!iet the i!isues caused by these
               credit memos."




                                                   5                                         Encl(3)




                                                                 41
                                                                                                                Final Report 

                                                                                                                 Reference






Financial Syst.em of RecOI'd Must Support Financial Statements. Page l2. " III addition,
DFAS pnsrer1 ml) r e thall 100 temporary journal vouchers infO DDRS 10 reconcile Treasury Tie
Po int varia/lces for data submitted throus h Iht! System/or the Nav)' as a who/e. "

               Recommend DoD[C revise l.his section of the Draft Discussion Paper

               Ratiotlale: Pe rDFAS C leveland. the tOO te mporary journal vouchers refere nced
               by OoD IG are a subset o f the 109 manual j ournal vouchers reviewed by l)olJ lG
               and should not be identified as such. The phra$e "for the Navy as a whole" should
               be o milled or clarified. The daHl unde r review was f Ol' NAVA [R only. not for the
               Navy as a whole.
                                                                                                              Page 21 

Sedjon: App~ndh: A. Sc.::olJCaud Methodolugy. Page 14. " lrl mldi/ioll, \lie wmpared Navy
finoncial data reported oW oj the System lIIil11 Nuv),j;IIullciai data reponed Olll oj DDRS.
 Specifically. we compared the September 30.2010. NA VAlR trial ball/lice rece;\ledjrom the
 Nav)' \Vilh lheflnancial tlata reporfed Olit of DDRS by DFASfor the same period."

               Recom mend DoDIG revi se Ul.is seclion of the Draft Discussion Paper

                              Click to add JPEG file
               Ratiol/a le: Thi s statement sho uld be modified 10 spec ify the uppropri:.llion   ye~u"1j:
               used for the uial balance comparison .




                                                  6                                                Ene! (3)




                                                              42
                           DEPARTME NT OF THE NAVY
                         NAVY ENTERPRISE RESOU RCE PLANNING PROGRAM
                                        2551 f{IVA ROAD
                                     ANNAPOUS, MO 21 401
                                                                             • "" ....VRI'U ,0
                                                                      7000
                                                                      Ser Navy ERP 11/083
                                                                      15 Nov 2011

From :     Program Manager, Navy Enterprise Resource Planning Program
To:        Assistant Secretary of the Navy (Financial Management and
           Comptroller)
Via :      (1) Program Executive Officer , Program Executive Office
               Enterpr i se Information Systems
           (2) Assistant secretary of the Navy (ReSearch, Development
               and Acquisition)

Subj :     NAVY ENTERPRISE RESOURCE PLANNING PROGRAM (NAVY ERP)
           RESPONSE TO DOD IG PROJECT NO . D2011-DOOOFN-0002 . 000

Ref :      (a)   DoD IG memo of 31 Oct 11

Enel:      (1) Navy ERP Program responses to recomme ndations

1.      Reference (a) requested comments on the audit of Navy ERP ' s
compliance with the Standard Financial Information Structure
(SFIS) and the U. S. Gover nment Genera l Ledger (USSGL) (Project I
                        Click to add JPEG file
D20ll-DOOOFN-0002.000). In response , enclosure (1) is provided.

                                         ~[~
                                  ~      J. L . CARTER




                                                         43
                                                                                                   Final Report 

                                                                                                    Reference






 Na,'y F.RP   Rc.~lll)nse   to DoD IG Recommendations in DoD IG Project D20It.D.OOOFN.0002.000




DoD IG Reco mmendation # 1: ' '¥ore reco mm end that the Under Secretary of DefellSe fur
Acq uisition, Techn ology, and Logisti cs approve depl oyment of the Navy Enterpri se
l{eSQurce Planning System to addi tional commands that are not included in the current
pwgram of record onl y when it full y compHes with th e defin ed Standard Financial
Info rm<lti on Structure requ irements."

~avy   ERP Program response to recommendation #1 :                       Non - concur.           Revised 


              (1)
                We concur with the objective of meeting SFIS
complia~ce    requirements for f uture deployments . In prac t ica l
terms, SFIS is an evolving set of data elements and business
rules requiring cont inual compliance p l an implementation
efforts. Some of the compliance requirements, suct as IUID, are
?ar t o f a broader implementation strategy requ i r i ng years to
achieve comp l iance. Since approval of futu r e deployments wou l d
De required we l l in adv ance of actual deployme~ts , it is
importa~t to cont inue forward with planning for business
                                 Click to add JPEG file
transformation in parallel with S FIS compliance activities.
Standa rd Financial Information Structure (SFIS) is an evcl v ing
set of data elements and business rules . As such , each annual
assessme n t is a point in time. The Program develops a plan for
compl i a~ce based on any gaps identified during each annual
assessmen t and works to resolve them in a timely manner , as
approved and funded by the Navy. The Program's plan for SFIS
compl i a:1ce is submitted to the Business Transformat:'on Agency
 (BTA)/OS D Depu~y Chief Managem:nt Of ficer (DeMO) fo r review and
acceptance as part o f the I nvestment Review Board (I RE) annual
review process.      The ?rogram is continuously enhanc':'ng its
capabilities and compliance to maintain alignment w':'th SFIS and
other Department goals a nd objectives. As both SFIS and the
Program continue to evolve and improve , it is important that the
planning , modernization , standardization , and improvemen t of
business:: operatior.s and processes for the res t of the Navy
=ontinue in parallel with impleme~tation of compliance pla n s fo r
evolving SFIS requirements .

         (2)  I~ May 2011, the BTA/OSD DeMO conducted a n
i ndependent assessment of Navy ERP's SFIS vB . O assessment.
Initial results found the Program to be 7l~ compliant. Navy ERP
planned to be full y SFIS compliant by 20 1 5 as r eported to
BTA/OSD DeMO ~ n the Program's SF I S v7.0 assessment. The progra~
is scheduled to complete the Program of Reco~d dep loymen t s in


                                                                              Enclosure (1)




                                                            44
                                                                                                 Final Report 

                                                                                                  Reference





 Na\'y EKJJ Res ponse to DoD IG Recommendations in DoD IG Proj ect D2011-D-OOOFN-OOO2.000
                                        (continued)

October 2012 and at this time there is no requirement for
additional deployments past the Program of Record. Given the
time requirements to initiate a new acquisition increment and
receive funding through the Planning, Programming, Budgeting ,
and Execution (PPEE) process, it is unlikely any additional
deployments could be executed prior to 2015.  Therefo r e, Navy
ERP is planned to be SFIS compliant p~ior to deployment to
addit i onal commands.


DoD [G RecummendaLion #2.a: "We recommend that the Chairman, Defense Business
Systems Management Committee:

    a. Approve fundin g for furth er deploy ment of th e Navy Enterpri se Resource
Planning System to addi tional commands that are not included in the current program of
record onl y wben the Navy can demonstrate that the Navy Enterprise Resource Pl anning
System complies wi rh the B usiJleSS Emerprise Architecture requirements, such as the
Standard Fi_nanciallnforrnat ion Structure."

Navy ER? Program response to recorr.mendation #2.a:    Non-concur .                            Revised 

Per the SFIS v7.0 compliance plan, Navy ERP pI armed to achieve
compl~ance in FYl5.       Click to add JPEG file
                         As discussed in the response to
recomnendation #1, given the time requirements to initiat.e a new
acquisi t ion increrr,ent and receive funding through the PPBE
process, it is unlikely any additional deployments could be
executed prior to 2015.      Therefore, Navy ERP is planned to be
SFIS compliant prior to deployment to additional commands.

DoD IG Recommendation #2.b: "Require the Investment Review Board to update
guidance for assessing Standard Financial Information Structure co mpliance to include an
independent validation assessment before making a sys lem certifi cation
recommendation."

Navy' ERP Program response to recommendation #2.b;      Pa:ctially
concur.     The BTA/OSD DeMO office is now conduc~ing independent
vdlidations of assessments however this is an intensive and
complex task that is proving to take more time than planned .
Scheduling of these independent validations must be coordinated
.,.-ith the Program to ensure t i melines for assessment and
reporting of results support the Program's need f or funds
certification.

3. DoD IG Recommendation #3.a: "We recom mend that the Assistant Secretary of the
Navy (Research, Development, and Acqu isition) and the Ass istant Secretary of the Navy
(Financial Management and Comptroll er):


                                            2                            Enclosure    ': 1 )




                                                      45
  Na\"y EKP Response to DoD IG Recommendations in DoD IG Project D2011-D-OOOFN-OOO2.000
                                           (con! inued)



   a. [mp)emelll Standard Finan cial Information Structure requirements for the Navy
Enterpri se Resource Planning System."

Navy ERP Program response to recommendation #3.a:  Concur.   The
Navy ERP Program has implemented the SFIS data elements and
business rules per the SFIS Resource Guidance. Navy Office of
Financial Operations (F~O) continues to work with Navy ERP,
Defense Finance and Accounting Services (DFAS) Cleveland Center,
and the Defense Departmental Reporting System (DDRS) Program
Management Office to address outstanding issues, as determined
during the annual SrIS assessments.

DoD IG Recommendation #3.b: "Use the ind ependent Standard Fina ncial Information
Structure validati on assess ment perfo rmed by the Busin ess Transformatio n Agency to
improve the vali dation process and impl ement Standard FinanciallnIo nnaLiun Slrm;lurt!
co mpli ance."

Navy ERP Program response to recorr.mendation #3 . b: Concur. An
independent Standard Financial Information Structure validation
assessment was performed by the BTA to improve the validation
                            Click to add JPEG file
process and impleme n t compliant Standard Financial Information
Structure in May 2011 . The Navy FMO and Navy 3RP PMO are
wnrking with BTA/OSD DCMO on the final report.

DoD fG Recommendation #3.c: «Update the Navy Enterprise Resource Planning Syslem
Charl ur Ac.::c.::u unls Lo in dude all u.s. SLandard General Ledger and DoD acc.::ounLs used lO
prepare Navy financial statements:'

DoD lG Recommendatio n #3.d: " Update the Navy Enterprise Resource Plann ing System
Chart of Accounts to include all Treasury updates applicable to the Navy."

Navy ERP Program response to recommendation #3.c. and #3.d:

    a.  Partially Concur with recommendations.    The Navy ERP
Program of Record only deploys to six commands (Naval Air
Systems Command (KAVAIR), Naval Supply Systems Command (NAVSUP),
~aval Sea Systems Command (NAVSEA)   Space and Naval Warfare
                                                    I


Systems Command (SPAWAR) , Strategic Systems Programs (SSP), and
Office of Naval REsearch (ONR)). These commands are resI;onsible
for executing approximately on e half of the Department of the
Navy's Total Obligational Authority.   The remaining 110 accounts
identified by the 000 IG are not required to support financial
management at these commands .



                                                                              Enclosure     :1,1




                                                          46
 Navy ERP Response to DoD Ie Recommendations in DoD IG Project D2011·D·OOOFN·0002.000
                                        (continued)

    b. Navy ERP can be updated tc include a:l accounts, however
requiring Navy ERP to incorporate the remaining 110 accounts
into its general ledger wOLld create an administrative burden in
the establishment with maintenance, and sustainment of general
ledger accounts that the current Navy ERP Department of the Navy
commands may never utilize.

    c.  Navy ERP will continue to update the Chart of A8counts
as directed by Navy FMO.

DoD IG Recommendation #3.e: "Finali ze and implement an updated chaf(er for the
Navy Chart of Accounts Governance Board, which includes a procedure to verify that
system ow ners make required changes.:

Navy ERP Program response to recommen dation #3.e:                     Navy ERP will
defer to Navy FMO for this response .

DoD IG Recommendation #3.f: Maintain the official crosswalk between the Navy Chart
of Accounts and the U.S. Smndard General Le dger/DoD Chan of Accounts in the Navy
Enterprise Resource Planning System. Establish a procedure in th e interim to validate
impl eme ntati on of the crosswalk between the official Navy Chart of Accounts currentl y
                          Click to add JPEG file
main tain ed in Exce l and the U.S. Standard General l .edger/DoD Chart of Accounts in the
Navy Enterprise Re source Planning System.

Navy ERP Program response to recommendation #3.f:                      Concur .

     (1) Action bas been partially completed.  The revised
Standard Operating Procedure on 'General Ledger Chart of
Accounts Update Request' by Navy ERP (updated on August 1, 2011)
and continuous coordination be~ween Navy ERP and FMO will result
in cross-walks off-line and contained within Navy ERP with the
same information. Navy FMO and Navy ERP implemented a process
co capture the ma~ping of Navy chart of Accounts (DON COAl to
U.S. Standard General Ledger (USSGL)/DOD Alternate accounts.

     (2)  Additionally, Navy ERP is developing an automated
utility to reconcile the ~MO DON eOA/DOD USSGL Crosswalk against
t.he Navy ERP General Ledger (GL)/Alt erna te GL tables. This
util ity will allow an automated validation of ~he FMO submitted
DON COA/DOD USSGL Crosswalk .

DoD fG Recommendation #3.g: Establish a process to ensure that required adj ustments
are made in the accounting system of record and not directl y into the Defense
Departmental Reporting System at the time of reportin g.



                                                                         Enclosure    (1 )




                                                       47
 Navy ERP Response to DoD IG Recomm endations in DoD IG Project D2011-D-OOOFN-OOO2.000
                                     (conlinued)

Navy ERP Program response to recommendation #3 . 9: Concur in
principle with clarification from DoD IG on the specifics for
validating the Navy ERP system trial balance. The Navy ERP
system produces timely bal ances, which ~ave been verified as
accurate; differences in trial balances are due to balance
presentation, additional interfaces, specifically,
expenditure / reimbursement data from DefenSE Cash Accountability
Systems and funding data from Program Budget Information System.
Navy ERP will provide technical support to ASN ( FM&C ) and DFAS as
required t o support development and implementation of a standard
process.




                         Click to add JPEG file




                                          5                            Enclosure (1)




                                                     48
